<html>
<title> - HEARING ON H.R. 427, TO PROVIDE FURTHER PROTECTIONS FOR THE WATERSHED OF THE LITTLE SANDY RIVER AS PART OF THE BULL RUN WATERSHED MANAGEMENT UNIT, OREGON, AND FOR OTHER PURPOSES; H.R. 434, TO DIRECT THE SECRETARY OF AGRICULTURE TO ENTER INTO A COOPERATIVE AGREEMENT TO PROVIDE FOR RETENTION, MAINTENANCE AND OPERATION, AT PRIVATE EXPENSE, OF THE 18 CONCRETE DAMS AND WEIRS LOCATED WITHIN THE BOUNDARIES OF THE EMIGRANT WILDERNESS IN THE STANISLAUS NATIONAL FOREST, CALIFORNIA, AND FOR OTHER PURPOSES; AND H.R. 451, TO MAKE CERTAIN ADJUSTMENTS TO THE BOUNDARIES OF THE MOUNT NEBO WILDERNESS AREA, AND FOR OTHER PURPOSES.</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




                   H.R. 427, H.R. 434, and H.R. 451

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             April 25, 2001

                               __________

                           Serial No. 107-19

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
71-931                     WASHINGTON : 2001

----------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. "Billy" Tauzin, Louisiana       Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. "Butch" Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. "Butch" Otter, Idaho
                                 ------                                


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 25, 2001...................................     1

Statement of Members:
    Blumenauer, Hon. Earl, a Representative in Congress from the 
      State of Oregon............................................    47
        Prepared statement on H.R. 427...........................    47
        Letter from Bull Run Heritage Foundation submitted for 
          the record.............................................    49
    Condit, Hon. Gary A., a Representative in Congress from the 
      State of California, Prepared statement on H.R. 434........     3
    Doolittle, Hon. John, a Representative in Congress from the 
      State of California........................................    25
        Prepared statement on H.R. 434...........................    26
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     3
        Prepared statement on H.R. 451...........................     4
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement on H.R. 427...........................    46
        Prepared statement on H.R. 434...........................    24
        Prepared statement on H.R. 451...........................     2

Statement of Witnesses:
    Brougher, Steve, Issues Coordinator, Central Sierra Chapter 
      of Wilderness Watch........................................    27
        Prepared statement on H.R. 434...........................    29
    Collins, Sally, Associate Deputy Chief, National Forest 
      System, Forest Service, U.S. Department of Agriculture, 
      Oral statement on H.R. 451.................................    17
        Prepared statement on H.R. 427, H.R. 434 and H.R. 451....    18
        Oral statement on H.R. 427...............................    68
        Oral statement on H.R. 434...............................    41
    Howarth, William Boyd, Chairman, Juab County, Utah, Board of 
      Commissioners..............................................     5
        Prepared statement on H.R. 451...........................     7
    Rosenberger, Michael, Administrator, Bureau of Water Works, 
      City of Portland, Oregon...................................    57
        Prepared statement on H.R. 427...........................    59

Additional materials supplied:
    Boggs, Denise, Executive Director, Utah Environmental 
      Congress, Letter submitted for the record on H.R. 451......    75
    Gearhart, Frank, President, Citizens Interested in Bull Run, 
      Inc., Letter submitted for the record on H.R. 427..........    76
    Maluski, Ivan, American Lands Alliance, et al., Letter 
      submitted for the record on H.R. 427.......................    77

 
 HEARING ON H.R. 427, TO PROVIDE FURTHER PROTECTIONS FOR THE WATERSHED 
OF THE LITTLE SANDY RIVER AS PART OF THE BULL RUN WATERSHED MANAGEMENT 
UNIT, OREGON, AND FOR OTHER PURPOSES; H.R. 434, TO DIRECT THE SECRETARY 
  OF AGRICULTURE TO ENTER INTO A COOPERATIVE AGREEMENT TO PROVIDE FOR 
  RETENTION, MAINTENANCE AND OPERATION, AT PRIVATE EXPENSE, OF THE 18 
 CONCRETE DAMS AND WEIRS LOCATED WITHIN THE BOUNDARIES OF THE EMIGRANT 
WILDERNESS IN THE STANISLAUS NATIONAL FOREST, CALIFORNIA, AND FOR OTHER 
 PURPOSES; AND H.R. 451, TO MAKE CERTAIN ADJUSTMENTS TO THE BOUNDARIES 
       OF THE MOUNT NEBO WILDERNESS AREA, AND FOR OTHER PURPOSES.

                              ----------                              


                       Wednesday, April 25, 2001

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 3:05 p.m., in 
Room 1334, Longworth House Office Building, Hon. Scott McInnis, 
[Chairman of the Subcommittee] presiding.
    Mr. McInnis. The Subcommittee on Forests and Forest Health 
will come to order. The Subcommittee is meeting today to hear 
testimony on H.R. 451, H.R. 434 and H.R. 427. I appreciate the 
witnesses taking time to offer remarks on these bills today, 
and I look forward to hearing each of your comments.
    Under Committee Rule 4(g), the Chairman and Ranking 
Minority Member can make opening statements. If other members 
have statements, they will be included in the hearing record.
    Now, is there any objection to Representative Doolittle 
having permission to sit on the dais and participate in the 
hearing? Seeing none, so ordered.
    Today the Resources' Subcommittee on Forests and Forest 
Health is conducting a hearing for those three bills as I just 
mentioned. I appreciate our witnesses taking time to offer 
remarks on these bills, and I look forward to your comments, 
but I would ask that all the witnesses honor the five-minute 
limit on testimony.
    [The prepared statement of Mr. McInnis follows:]

  Statement of The Honorable Scott McInnis, Chairman, Subcommittee on 
                 Forests and Forest Health, on H.R. 451

    I would like to thank Chairman Hansen for taking the time to 
testify before the Forests and Forest Health Subcommittee and to 
commend him for his leadership on the Mount Nebo Wilderness Boundary 
Adjustment Act. This legislation is a balanced attempt to correct an 
oversight within the Utah Wilderness Act of 1984 that presently 
threatens the drinking water supplies of several communities in Mr. 
Hansen's District. The Chairman has gone to great pains to accommodate 
all of the parties with a stake in the legislation, and for that the 
bill deserves the support of the Members of this Subcommittee.
    The Mount Nebo Wilderness Area is located in the Uinta National 
Forest in Juab County, Utah, not far from my District in western 
Colorado. Mount Nebo was designated as wilderness with the enactment of 
the Utah Wilderness Act in 1984, a bill Chairman Hansen sponsored. 
Unfortunately, the legislation and accompanying maps wrongly designated 
as wilderness various parcels of public land that included water system 
developments.
    Because, as we all know, the Wilderness Act does not allow any 
motorized vehicles to enter into wilderness areas, these water systems 
have begun to deteriorate without the aid of maintenance. While some of 
the necessary maintenance has been done by hand, much of the work 
requires the use of either motorized or mechanized equipment. In one 
area, Willow Creek, a concrete ditch once became so dilapidated by 
normal wear and tear that it was unable to sustain the flow of water. 
Due to the county's inability to sufficiently maintain the ditch, the 
water caused substantial erosion before it was finally repaired. At 
present, without the possibility to adequately maintain these water 
developments with machinery, more large-scale damage along these lines 
will occur to the other facilities.
    To remedy this situation, Chairman Hansen has introduced 
legislation to remove these eight tracts, each of which is home to a 
water facility, from the wilderness area. Again, it is critical to 
remember that these areas were erroneously included within the borders 
of the wilderness area in the first place. Moreover, as Commissioner 
Howarth has pointed out in his written testimony, these parcels will 
still remain in the public domain, and will therefore still be subject 
to the Forest Service's management protections.
    Much to their credit, Chairman Hansen and officials from Juab 
County entered into negotiations with local Forest Service officials in 
an effort to identify additional would-be wilderness areas to 
compensate for the 428.774 acres that would be excluded in the boundary 
adjustment. The parties agreed to include 439.209 acres of land 
classified as ``roadless'' to offset the discharge of the eight parcels 
with water facilities. When viewed together, then, this boundary 
adjustment would actually result in a 10-acre net gain in the overall 
size of the wilderness area.
    As a general matter, I know that there are some who are opposed, 
per se, to removing land from wilderness protection. While I might be 
sympathetic to this argument in some instances, this is not one of 
those times. The Chairman's bill is an eminently fair attempt to remedy 
an unfortunate oversight within the 1984 legislation, in a manner that 
honors the Mount Nebo Wilderness Area's broader preservation values. At 
the end of the day, the wilderness area actually increases in size, 
even as Juab County's water facilities are excluded. For these reasons, 
this bill clearly deserves the support of this Subcommittee.
                                 ______
                                 
    [The prepared statement of The Honorable Gary Condit 
follows:]

  Statement of Gary A. Condit, a Representative in Congress from the 
                    State of California, on H.R. 434

    Mr. Chairman, thank you for the opportunity to speak in favor of 
H.R. 434, a bill that protects a piece of California's back country 
heritage that has become an important wildlife habitat.
    H.R. 434 directs the Secretary of Agriculture to enter cooperative 
agreements to retain, maintain, and operate at private expense 18 
concrete dams and weirs located within the Emigrant Wilderness in the 
Stanislaus National Forest. I fully support this legislation, and the 
preservation of these historic structures.
    The first of the 18 dams and weirs was constructed in 1920- 55 
years before Congress designated it as a Wilderness Area. Sportsman and 
high-country adventurer Fred Leighton traveled throughout the area, 
constructing dams to maintain water flow on the Cherry River to nurture 
minnows living in the streams and keep lakes deep enough to prevent 
fish from freezing in the winters. His efforts were supported through 
funding and labor provided by the United States Forest Service, 
California Department of Fish and Game, California Conservation Corps, 
Tuolumne County, Tuolumne County Sportsmen's Association, City and 
County of San Francisco and local citizens.
    For more than 80 years, lakes, meadows and wetland habitats 
providing healthy ecosystems for fish, otters, geese, birds, deer, 
rabbits, reptiles, waterfowl, and insects have thrived thanks to the 
presence of these check dams. Loss of these reservoirs through lack of 
maintenance would jeopardize all of these wildlife populations. 
Additionally, the absence of these check dams will increase 
recreational pressure on remaining lakes in the Emigrant Wilderness 
Area. Sport fishing visitors will be forced to congregate around the 
few existing lakes, which will also reduce opportunities for solitude, 
a key part of true wilderness experience.
    Although subtle features of the Emigrant Wilderness themselves, 
these 18 check dams have become important aspects of the natural 
environment and reflect the unique history of the land and its 
visitors. Having personally visited Emigrant Wilderness Area, 
specifically Yellowhammer dam, I can attest the wilderness qualities of 
the region are in no way compromised by the presence of these small 
dams. In fact, the maintenance of these dams insures the continued 
existence of many wildlife species, which are a significant draw to 
visitors in the area. I wholeheartedly endorse the passage and 
enactment of this legislation. Thank you again, Mr. Chairman, for 
providing me the opportunity to share my comments.
                                 ______
                                 
    Mr. McInnis. With that, the Subcommittee will take up H.R. 
451, the Mount Nebo Wilderness Area Boundary Adjustment Act.
    Mr. Chairman, thank you for coming. I will have you note I 
started the Committee pretty close to on time, since you insist 
on promptness. You are recognized, Mr. Chairman. You may 
proceed.

STATEMENT OF THE HONORABLE JAMES V. HANSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Hansen. Well, thank you, Mr. Chairman. It is a pleasure 
to be here in the Subcommittee, and I appreciate you taking 
this piece of legislation.
    I want to welcome W. Boyd Howarth, our County Commissioner 
and those who are with him from Juab County. These folks are 
great public servants, and I appreciate the great work they do 
in this beautiful county.
    Let me give you a little background on H.R. 451. You know, 
we have been playing around with this for a long time. Almost 
18 years ago, myself and Jake Garn did a bill on Utah 
wilderness and the Forest Service. The area of Mount Nebo is 
immediately east of Nephi, Utah, and in that area we thought we 
had it worked out. I guess we weren't smart enough to see that 
we didn't, but there are some water systems up there and a few 
other things we are very concerned about. We felt that they 
were cherry-stemmed so that the people in Juab County could go 
up in that area and take care of this water. Now, they use this 
water. The water they use for culinary purposes and other 
purposes, and all of a sudden they were told by the Forest 
Service they couldn't do it. We have been hammering the Forest 
Service now for 15 years, asking, well, give us a definitive 
action on this.
    So now we expect our guys out there to put a backpack on, 
walk up in there, fix the tile, clean it up, clean the thing up 
and walk out. Well, it is almost impossible, and it is a tough 
situation for our folks to have there.
    So, we thought, well, maybe the best thing for us to do--
and I have been to that area. I have looked at it. I have been 
up on top, on the bottom. I think I know it backwards and 
forwards. And we have been dealing now, this is the third or 
fourth administration we have been trying to square away this 
relatively minor problem, which has created quite an 
encumbrance on the folks down there in Juab County.
    So we are introducing this bill, which in effect says that 
we will cherry-stem those areas so that they can take in the 
proper equipment to take care of these areas as they need to 
maintain, which we thought we did the first time around.
    I went up with Jake Garn in his airplane the other day and 
we flew around, and this issue came up, and we said--Jake said, 
``Well, I thought we had that resolved.'' I said, ``I thought 
we did too, but apparently, we don't.''
    So I think the only way we can handle this is to put this 
bill in and see if we can take care of something that Congress 
originally intended. And so this remedy is a legislative remedy 
to adjust the current boundaries to exclude the water 
development, and also--the commissioner can correct me, but I 
think there are some private inholdings in there we also want 
to take care of. However, what it does, is we are adding some 
acreage, which would in effect more than take up the difference 
which is necessary to take care of this area.
    Now, Nephi and the town of Mona will now have access to 
their water development, inholdings will be removed, and the 
Forest Service will have a wilderness area with less human 
intrusions and fewer access issues.
    Now, I personally feel it is a good piece of legislation, 
probably a housekeeping piece of legislation, but I appreciate 
the commissioner and his folks from the county being with us, 
to spend the time with us. It means an awful lot to those 
cities in Juab County.
    And with that, Mr. Chairman, I would be happy to respond to 
any questions anyone may have regarding this legislation.
    [The prepared statement of Mr. Hansen follows:]

  Statement of The Honorable James V. Hansen, Chairman, Committee on 
                         Resources, on H.R. 451

    I want to welcome Commissioner Howarth to this hearing on H.R. 451. 
I appreciate you being with us today. As the good Commissioner knows, I 
have taken a particular interest in this ongoing management issue of 
the Mt. Nebo Wilderness Area because of my history with the 
legislation.
    More than 15 years ago, as a junior member of this Committee, I 
drafted the Utah Wilderness Act of 1984 which created 800,000 acres of 
wilderness within the Forest Service lands in Utah, including the Mt. 
Nebo Wilderness area. This is a very beautiful area, rich in biological 
diversity, offering numerous primitive recreational opportunities, 
tremendous solitude and breathtaking views of the Great Basin, all 
within one hour of nearly 80 percent of the population of Utah. There 
is no question that the Mount Nebo area deserves wilderness protection.
    As the members of this Committee know, creating congressionally 
designated wilderness is not an easy process. In Utah, we had to work 
through a dozen different management issues in each area we wanted to 
protect. We had to determine how to protect valid existing rights such 
as grazing, mineral development and historic access to certain areas. 
We had to navigate through the private inholdings issues and work with 
the agency and local governments to identify and draw boundaries that 
made the best management sense. The legislation was literally the 
result of hundreds of hours of negotiations. However, during the 
legislative process we don't always get everything buttoned up exactly 
the way we would like.
    In this case, 17 years ago, maps were erroneously drawn which 
included some pre-existing developments to municipal and agricultural 
water systems that have supplied water to Juab County since the late 
1800s inside the wilderness boundaries. These systems are old and in 
need of constant maintenance and care. But due to the restrictions on 
motorized vehicle access in wilderness areas, it is difficult, if not 
impossible, to adequately maintain these existing facilities.
    In addition to these maintenance problems, a small piece of private 
land was also included that should not be inside the boundaries of the 
wilderness area.
    I know the Forest Service is interested in working toward a 
solution. The Committee needs to be aware that the Forest Service has 
had more than 15 years to develop a solution. Commissioner Howarth will 
tell us that they have been trying to reach an administrative solution 
since the wilderness area was declared. Given that we were forced to 
introduce legislation to bring about a solution is indicative that it 
is not likely that the problem can be solved administratively.
    The best remedy is to legislatively adjust the current boundaries 
to exclude the water developments and the private inholdings. This bill 
accomplishes that. We have also adjusted the southern boundary to 
include an area of roadless Forest Service land to compensate for the 
acres removed, resulting in a slight increase in the wilderness 
acreage. Nephi City and the Town of Mona will have access to their 
water developments, inholdings will be removed and the Forest Service 
will have a wilderness area with less human intrusions and fewer access 
issues.
    I know that initially, there were concerns regarding the impact of 
moving boundaries back up these canyons and how it might put pressure 
on additional development through increased public access. 
Administrative roads are used by all agencies. Nothing precludes the 
Forest Service from keeping these roads closed to the general public 
except motorized access to the County for the maintenance of their 
existing water facilities.
    Ms. Collins, I look forward to hearing the testimony today and I 
particularly look forward to your taking my questions.
                                 ______
                                 
    Mr. McInnis. Mr. Kildee, do you have any questions?
    Mr. Kildee. I have none right now.
    Mr. McInnis. With that, we are going to go ahead and ask 
the county commissioner. Commissioner? Thank you, commissioner 
for attending. A long ways from home. We appreciate your time, 
and again ask that you honor the five-minute rule. You may 
proceed with your testimony, sir.

STATEMENT OF WILLIAM BOYD HOWARTH, CHAIRMAN, JUAB COUNTY, UTAH, 
                     BOARD OF COMMISSIONERS

    Mr. Howarth. Honorable Chairman and committee members, I am 
William Boyd Howarth, Chairman of the Juab, Utah Commission. We 
appreciate the opportunity to represent the residents of Juab 
County today, and express our strong support of H.R. 451.
    In my written statement I have included a more-detailed 
explanation of the issues and problems that we have been 
facing, concerning some small areas within the Mount Nebo 
Wilderness Area. Because of Committee rules, even the written 
submittal is very abbreviated. We have much additional 
information to substantiate the real need for H.R. 451. In the 
few minutes that I have here today, I will highlight some of 
the important points. I would ask you to remember that as you 
consider H.R. 451, there are five points that I will briefly 
discuss.
    Item Number 1. Water systems and patent mining claims 
should never have been included in the wilderness of 1984. All 
of the information presented during the discussion of proposed 
wilderness indicated the wilderness boundary would be at the 
8,000-foot level on the west side of Mount Nebo. This was 
important to protect existing water systems and patent mining 
claims located below that elevation. After the Utah Wilderness 
Act of 1984 was passed, it was discovered that the actual 
wilderness boundary was, in most cases, brought down to the 
forest boundary, in some areas below the 5,300-foot level of 
elevation. With this change, the patent claims and the water 
systems were held hostage within the wilderness. Their presence 
presents significant problems for the owners of the system and 
also creates management headaches for the Forest Service.
    While the 1964 Wilderness Act provides for recognition of 
prior valid and existing rights, and some believe that H.R. 451 
is not necessary, over 16 years of experience have clearly 
demonstrated that change is needed. While current law may allow 
these items to be resolved, this certainly has not been the 
case.
    On several occasions congressional intervention and even 
court action has been required to protect these rights. Bob 
Steele, a member of our county commission, was forced to sue 
the United States to get access to his patent mining claims and 
the right to mine these claims. This suit was settled with a 
judgment against the United States.
    Number 2 of the stipulation of entry for judgment reads: 
``Judgment shall be entered in the favor of the plaintiffs and 
against the United States in the amount of $120,000.'' A copy 
of this stipulation is attached to my written testimony.
    Significant resource damage has occurred when water 
delivery systems have worn out or eroded, and if rapid 
approvals could have been received, this damage could have been 
very well minimized. However, the extended delays encountered 
and bureaucratic delays and untruths, resulted in significant 
erosion and other problems.
    Point Number 2. This will not adversely impact the Mount 
Nebo Wilderness. I believe these areas are in fact in conflict 
with wilderness management goals and values. There is an 
absolute need to access these systems, including needed cleanup 
that cannot practically be accomplished without the use of 
mechanized equipment. These water rights have priority dates in 
the 1800's, and constitute a valid longstanding right to the 
owners of those rights.
    Point Number 3. There is a net gain of wilderness. Early 
discussion indicates that if the total area requested out of 
wilderness were less than 500 acres and if there were no net 
loss of wilderness acres, this boundary adjustment would be 
possible. I feel it is important to recognize there is actually 
a small gain of wilderness acreage with H.R. 451. Also the area 
that will be added is much better suited to wilderness 
designation, and is much more manageable than the areas being 
removed.
    Point Number 4. The resulting wilderness area is more 
manageable. It has been difficult to manage the existing 
boundaries. These well-established roads have been gated. In 
one area the gates have been removed several times to try and 
find a location where the access could be managed. We have 
worked hard to make the new proposed boundaries manageable. It 
is not enough to easily identify a boundary on a map. The 
boundaries need to be easily identified on the ground. Proposed 
boundaries will follow ridge lines and etcetera to help with 
manageability.
    Item 5. The lands removed from wilderness are still within 
the forest and subject to Forest Service management. It is 
important to remember that while this land was removed from the 
wilderness, it is still in the Uinta National Forest. Use of it 
will still require special use permits and would be subject to 
Forest Service regulation and oversight. There is not a 
possibility that these lands can be pillaged.
    This change allows the owners of these rights to properly 
use and maintain their rights, and also allows the Forest 
Service to be much more responsive to needs. H.R. 451 is a win-
win. As one Forest official said, ``Let's solve the issues, so 
when we get together we can work productively on the many 
issues that face us, and not continue to battle over these 
systems.''
    These issues have been a source of frustrations for over 16 
years. Let us solve the issues that should have never been 
created. Protect the Nebo Wilderness. Make it more manageable, 
and allow for proper maintenance and operation and management 
in these areas. This bill is a reasonable, environmentally-
conscious solution to this problem. Please give this bill your 
favorable consideration. And thank you.
    [The prepared statement of Mr. Howarth follows:]

 Statement of William Boyd Howarth, Chairman, Board of Commissioners, 
                     Juab County, Utah, on H.R. 451

    Honorable Chairman and committee members: I am William Boyd Howarth 
Chairman of the Juab County, Utah, Commission. We appreciate the 
opportunity to represent the residents of Juab County here today and 
express our strong support of H.R. 451.
    H.R. 451 would remove approximately 429 acres from the Mt. Nebo 
Wilderness area, add 439 acres to the wilderness area, and make one 
technical correction. It is important to note that this a net gain of 
wilderness acres. This bill is a conservative approach to remove very 
limited areas from the wilderness in order to allow continued use and 
maintenance of water systems that date back to the 1800's and to allow 
access to the existing patented claims in Gardner Canyon. We have 
checked with local cattlemen, farmers, ranchers, and other public 
officials. Every one that we have discussed this with agrees that this 
is a good area to exchange for the water systems and patented mining 
claims that we have identified.
    Let me outline a few of the reasons why this bill is necessary. 
During the early 1980's, as Forest Service Wilderness was being 
discussed, the proposals that were presented showed that on Mt. Nebo 
the western boundary of the wilderness area would be at the 8,000 foot 
elevation. This was important to protect existing water systems and 
patented mining claims located below that elevation. Water is the 
lifeblood of any area. After the Utah Wilderness Act of 1984 was 
passed, it was discovered that the actual wilderness boundary was, in 
most cases, brought down to the forest boundary. In some areas it is at 
the 5,300-foot elevation. With this change, the patented claims and 
water systems were held hostage within the wilderness. These systems 
should have never been included in wilderness. Their presence presents 
significant problems for the owners of the system and it also creates 
management headaches for the Forest Service. Local Forest Officials 
have been very positive about trying to resolve these issues.
    While the 1964 Wilderness Act provides for recognition of ``prior, 
valid existing rights'', and some believe that H.R. 451 is not 
necessary, over 26 years of experience clearly demonstrates that change 
is needed. While current law may allow these items to be resolved this 
certainly has not been the case. On several occasions, congressional 
intervention and even court action has been required to protect these 
rights.
    This bill would take seven specific areas out of the wilderness and 
also clarify the map so there is no misunderstanding that one piece of 
private property is not within the wilderness area. The areas are 
identified as follows:
    1. Monument Springs: These springs are a part of the Nephi City 
Culinary Water System. A pipeline carries water from the springs down 
to a lower collection system. Approximately 1/8 mile of the pipeline 
and the springs are within the wilderness. Nephi plans to do some 
repair on this system and pipe it down to water the golf course, 
freeing up softer water from other springs for the regular culinary 
system. The original wilderness bill does give municipalities some 
special access rights, however, this small adjustment would prevent 
many problems. These springs have a priority date of 1937. This parcel 
contains 26.045 acres
    2. Gardner Canyon: This canyon provides culinary and irrigation 
water and has patented mining claims. These springs in Gardner Canyon 
have a priority date of 1878 and 1855. This parcel contains 202.084 
acres. Much of this acreage consists of the patented mining claims that 
are going to be mined.
    3. Birch Creek: Water from Birch Creek is used for irrigation on 
farms located beneath the wilderness. These springs have a priority 
date of 1850. This parcel contains 4.161 acres. Access is needed to 
maintain and utilize this water source including the ability to use 
mechanized equipment when necessary..
    4. Ingram Canyon: Water from this canyon provides 100% of the 
culinary water for four (4) homes in the valley. These springs have a 
priority date of 1923. This parcel contains 17.296 acres.
    5. Willow Creek: The original water rights in Willow Creek were 
secured under Utah Law evidenced by Diligence Claim 79. Water was first 
diverted for use into the Willow Creek Canyon System in the 1870's. 
Mona Irrigation Company was formed in 1896. Willow Creek South contains 
68.156 acres, and Willow Creek North contains 50.38 acres.
    6. Mendenhall: These springs have a priority date of 1899 and 
provide irrigation water. This parcel contains 16.350 acres.
    7. Wash Canyon: These springs have a priority date of 1880. The 
water from Wash Canyon is used for irrigation on the farmlands. The 
Forest Service has requested that debris and fragments from a previous 
line that was installed prior to current ownership be removed. This 
also requires the use of heavy equipment for which access rights have 
been denied. This parcel contains 44.302 acres.
    8. Dale: From the information that we have it appears that the Mt. 
Nebo Wilderness Area Boundary cuts this private property approximately 
in half. H.R. 451 would clarify that this private property is not 
within the wilderness boundary.
    Time does not permit me to describe all of the problems that have 
arisen concerning these valid rights so I will only outline a very few 
of them.
    The owner of the patented claims in Gardner Canyon was driving the 
existing road to his claims when the Forest Service ticketed him. He 
also faced significant unwarranted delays and was told that he would 
not be allowed to mine his claims. Even though research showed use of 
this road as early as the 1880's, the Forest Service denied Juab 
County's claim that this was an RS2477 right-of-way. As a result of 
this the owner filed suit against the Forest Service to maintain his 
right of access and his right to mine his claims. The settlement 
required the Forest Service to pay $120,000 and required that the 
Forest Service grant him a special user permit that would allow him 
necessary access and the right to mine those claims. I have attached to 
my written statement documents verifying the settlement and lack of 
recognition by the Forest Service of these rights.
    Let me briefly tell you the story of Jack Howard. Jack is an 80-
year-old man who lives just below Gardner Canyon. He personally has 
lived at that location, in two different homes, for 77 of the last 80 
years. For the three years that he was absent he was serving in the 
military. Throughout his entire life (and before that) the culinary 
water for the family has come from springs in Gardner Canyon as part of 
the Gardner Canyon Irrigation Company. Maintaining the water system 
requires cleaning screens located in the canyon. Since wilderness 
designation, Jack has had to walk the steep up-hill road to clean the 
screens. This is the same road that can be used to mine the claims, 
however, at the age of 80 and severely bent over, Jack is still 
required to walk the 3/4-mile into the canyon.
    During the Utah floods of 1983-84, a large mudslide coved and 
destroyed the upper portion of the pipeline. The water that flowed 
through that pipeline now flows through an open ditch. During certain 
times of the year the water flows through the decaying leaves from the 
trees and picks up much of this debris that clogs the screens. Jack is 
required to walk up the road to clean these screens. On washday, Jack 
and his wife often have to change the filter in their home every two 
hours. The irrigation company has been unable to repair the pipeline 
because of wilderness designation.
    Willow Creek is another prime example that a change is needed. Let 
me paraphrase from a letter by the President of the Mona Irrigation 
Company. Mona Irrigation Company owns the rights in Willow Creek. While 
Mona Irrigation Company's water rights and legal rights to divert and 
convey water which originated in the Mt. Nebo wilderness are recognized 
by state law and the 1964 Wilderness Act provides for recognition of 
``prior, valid existing rights''-- as a practical matter, bureaucratic 
delays, lack of response, and down-right untruth proves that this has 
not been the case.
    When the company proposed renovation of structures that protruded 
into ``wilderness'', they were met by obstacle after obstacle by the 
Forest Service bureaucracy. Initially, they were told that work was 
being done on the required Environmental Assessment. They were told 
this many times over an 18-month period. They persevered until the fact 
surfaced that not only was the EA never started, many other crucial 
facts, such as procedural steps, required comment periods, design 
requirements, and other pertinent facts had been so misrepresented to 
them that after two years of requesting action, no progress had been 
made past the initial phase. After the Forest Service was forced to 
take action due to intervention by Senator Bennett, the Forest Service 
they continued not only the delay tactics but also sought to interpret 
the rules in the most stringent way possible. Our engineer finally 
devised an elaborate design, meant to attempt to meet the requirements. 
This design used expensive materials, expensive construction methods, 
and such stringent requirements that when we put the project to bid, 
the low-cost bid was four times the cost the project should have been 
required, were in not for the wilderness designation of the upper 900 
feet.
    The final result was that the project took four years to get 
approval, water rights had to be defended against wilderness 
``advocates'' who sought to infringed upon them, the costs were 
dramatically increased, and the resource was wasted during this 
inexcusable delay with significant accompanying erosion damage caused 
by an agency supposedly concerned with protecting the resources and 
serving the public.
    Similar stories could be told of each of the areas that H.R. 451 
would remove from wilderness. It is important to remember that while 
H.R. 451 would remove these areas from wilderness, the areas will still 
be within the Forest, and the Forest Service has adequate regulations 
and authority to insure that work that is done in these systems is done 
in an appropriate and environmentally conscious manner. I strongly 
encourage your favorable consideration of H.R. 451.
                                 ______
                                 
    [Attachments to Mr. Howarth's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T1931.016
    
    [GRAPHIC] [TIFF OMITTED] T1931.017
    
    [GRAPHIC] [TIFF OMITTED] T1931.018
    
    [GRAPHIC] [TIFF OMITTED] T1931.019
    
    [GRAPHIC] [TIFF OMITTED] T1931.020
    
    Mr. McInnis. Thank you, Commissioner.
    Mr. Chairman, do you have a question?
    Mr. Hansen. I would just like to, if I could, Mr. Chairman, 
ask the commissioner, isn't it true that the Juab County 
Commission, when this bill was originally passed, was of the 
opinion that this water system was going to be accessible for 
the people in Juab County and the people of Nephi and Mona?
    Mr. Howarth. As I understand, that is correct, that it 
would be, such as the morning it came back to committee here, 
it was changed down to the 5,300-foot level, when we thought it 
would be at the 8,000-foot level, and everything would be safe 
within those distances.
    Mr. Hansen. I know that you have Mr. Greenhalgh with you 
also, your economic development director, and having met with 
him many times, I am sure I have had that opinion expressed to 
me, I can't understand the attitude of the Forest Service 
trying to cut off just water supply to these little 
communities, but I would like to just tell the Committee this 
is basically kind of a housekeeping measure just to clear up on 
issue, and maybe the Forest Service will clear up part of it 
when they take the stand. But I appreciate the commissioner 
coming, and Mr. Greenhalgh and the other folks with him, for 
the good work that they have done there, and I would hope the 
Committee would vote favorably on this piece of legislation.
    Mr. McInnis. Thank you, Mr. Chairman.
    Mr. Inslee?
    Mr. Inslee. Thank you, Mr. Chair. Thank you, Mr. Howarth, 
for making the journey here. I have a couple questions. I am 
sorry, I am not really familiar with this issue and I missed 
part of your testimony. My apologies.
    Could you tell us about in the change of the boundary of 
the wilderness area, would you characterize this, is this the 
minimal changes that would be required for these water systems? 
Could your proposal be subject to a criticism that it takes in 
more in the exclusion than would be really necessary? Tell us 
about that, if you will.
    Mr. Howarth. As we have worked it, is the minimal. It was a 
cherry stem in order that they could come to the forest 
boundary and in, and bring mechanized equipment. They can bring 
in the steel pipe now because heavy-duty pipe, extruded PVC, it 
will crack and move and bend and break in rocky area and when 
the earth moves. And then if it is a community, they can go 
into the head houses. They can develop it, because water has to 
come from source to delivery to point of use, and that is what 
we are trying to do. We have no natural lakes. We have no 
reservoirs. In fact, this year we are at 40 percent snow pack. 
Since 1851, when the pioneers came, they have used these 
sources as water.
    Mr. Inslee. Given the nature of water in our west, it is a 
little surprising to me that this issue was not resolved when 
the bill was first passed. Mr. Hansen indicated there was 
apparently some misunderstanding about the elevation or the 
level the wilderness was drawn at. It surprises me that 
something like that would not be resolved at the time of the 
bill, given the nature of the importance of water. Could you 
tell us how that occurred?
    Mr. Howarth. Maybe I don't understand what you are asking.
    Mr. Inslee. Well, as I understand, Mr. Hansen suggested 
that there was a misunderstanding about how the parameters, the 
boundaries of the wilderness were drawn, and there was some 
reference to elevation. I heard somebody say that there was an 
elevation difference than they originally contemplated was 
going to be in the bill. I am just asking you to explain to us 
how this could have happened, to have such a big difference?
    Mr. Howarth. I would love to know how that did happen, 
because it happened back here. As we know, in that area of the 
residents, that bill should have been placed at 8,000 feet. But 
when it was passed, the 1984 Wilderness Act for Mount Nebo came 
down in fact to the 5,300-foot level. As you leave Nephi, you 
can go past Exit 228 of I-15, and it is within a quarter of a 
mile of the wilderness boundary.
    Mr. Hansen. Will the gentleman yield?
    Mr. Inslee. Yes.
    Mr. Hansen. The gentleman from Washington is, I am sure 
aware, when we pass a wilderness piece of legislation, they go 
draw the maps, and then they let us review those. Well, we 
didn't ever get to review them. Maybe that is our fault, maybe 
so. But the intent of the bill, which is very clear, is that 
these water systems would be cherry-stemmed in, so that these 
folks--right on the side of the mountain there, east of the 
town. And that didn't occur. If we had had--maybe we dropped 
the ball, maybe somebody else. I don't know. If we had done it 
right though, we would have again reviewed it and made sure 
that that is the intent where that line was drawn. It is very 
hard on these wilderness in the west. I am sure you are 
probably more aware than I am how difficult it is to draw those 
lines on a wilderness area. I think of all the wilderness areas 
I have been involved in, we ought to go back and look and see, 
well, where do you put this line? And many times it just 
happens, and we don't get a handle on it.
    So if it is us or it is the Forest Service, I am not sure, 
but it was not the intent of the bill, and being the sponsor of 
the bill with Senator Garn, we both acknowledge the mistake. 
And the folks in Juab County and the city of Nephi and Mona are 
the recipients of some rather poor work on maybe our parts or 
somebody else. But that is what we are trying to rectify.
    Mr. Inslee. Appreciate that, Mr. Chair. Just another 
question.
    Mr. Howarth, I am always a little bit--at least I am a 
little bit nervous about nibbling on these wilderness areas, 
that create some red flags because there are a lot of economic 
activities around the west, that could tend to want to nibble 
on the boundaries of these areas, and maybe it makes sense to 
think about a no-net-loss provision when we make these boundary 
adjustments so that there is--we try to have a policy of no-
net-loss on wilderness, and I am just wondering if you or 
anyone has discussed locally the prospects that if we do change 
these boundaries, that we add some wilderness of an appropriate 
acreage another place. And you are already doing that, and my 
staff is now telling me that is going on. Is that accurate, Mr. 
Chair?
    Mr. Hansen. The gentleman from Washington, actually not 
much of an increase, but we do add some to this. Actually 10 
acres we are adding, so what we are taking away, we are more 
than making up for 10 additional acres into this wilderness. 
That is not much, but it is better than a loss.
    Mr. Inslee. Well, we appreciate that. And thank you, Mr. 
Howarth.
    Mr. Howarth. Thank you.
    Mr. McInnis. I might add, Mr. Inslee, in the wilderness 
that I put in last year, we discovered a mistake, and for the 
Forest Service or for us to now insist that there be no net 
loss because there is a couple of acres or so that have been 
mistaken in there, the Government shouldn't have added in 
wilderness in the first place, and I don't think they should be 
stuck with a no-net-loss. So I don't think we should have a no-
net-loss that locks in every wilderness that we have got up 
here. But just an aside here.
    Let us see. Mr. Peterson.
    Mr. Peterson. I have no questions.
    Mr. McInnis. Mr. Holt?
    Mr. Holt. It seems to me that this is so dependent on the 
details of the map, and that I am happy to take the word of the 
Chairman and our witness on this. So I have no questions at 
this time.
    Mr. McInnis. Ms. McCollum?
    Ms. McCollum. Nothing, Mr. Chairman.
    Mr. McInnis. Thank you, Commissioner. I appreciate very 
much you taking the time and testifying for us today.
    Mr. Howarth. Thank you, ladies and gentlemen.
    Mr. McInnis. At this point in time, we will excuse the 
commissioner and ask the Forest Service to come up, please, Ms. 
Collins. Welcome back to the Committee.
    Ms. Collins. Thank you.
    Mr. McInnis. You may proceed, and we ask you recognize the 
five-minute rule.

 STATEMENT OF SALLY COLLINS, ASSOCIATE DEPUTY CHIEF, NATIONAL 
        FOREST SYSTEM, USDA FOREST SERVICE, ON H.R. 451

    Ms. Collins. My comments on this bill are very short. I am 
Sally Collins, the Associate Deputy Chief of the National 
Forest System here in Washington, D.C., have been here a year, 
and this is the second time I have been before this Committee.
    My comments today represent the views of the Administration 
on this particular bill, H.R. 451--and I won't go into any more 
of a description of it--but let me start with this statement. 
We really do recognize that there are legitimate issues 
associated with these permitted uses in these eight areas. We 
really are very interested in working with you to resolve these 
as well as to look at the existing authorities that we have 
governing all of these facilities.
    And I also want to recognize something that you all have 
already said, that when Mount Nebo Wilderness was created in 
1984, we may have overlooked some of these areas as maps were 
being developed, which may have created this 16 to 18 years of 
frustration that you all have been talking about this morning 
or this afternoon.
    If enacted, Section 5 of this bill would amend the Utah 
Wilderness Act to further define water issues, and I do want to 
make a point about that. I think that there is some terminology 
that is technical that we may need to work on, that may impact 
wilderness areas beyond this in ways that we may not want, that 
just may be unintended consequences that we are certainly 
willing to talk about further.
    But I guess my main point is that we are really interested 
in working with Chairman Hansen and the permittees and all the 
interested parties to resolve all the accessibility and 
management issues associated with Mount Nebo Wilderness. And 
that is my comment for today. Any questions?
    [The prepared statement of Ms. Collins follows:]

  Statement of Sally Collins, Associate Deputy Chief, Forest Service, 
  United States Department of Agriculture, on H.R. 451, H.R. 434, and 
                                H.R. 427

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today. I am Sally Collins, Associate 
Deputy Chief for National Forest System, USDA Forest Service. My 
comments today represent the views of the Administration on three 
bills: H.R. 451, a bill ``To make certain adjustments to the boundaries 
of the Mount Nebo Wilderness Area, and for other purposes''; H.R. 434, 
a bill ``To direct the Secretary of Agriculture to enter into a 
cooperative agreement to provide for retention, maintenance, and 
operation, at private expense, of the 18 concrete dams and weirs 
located within the boundaries of the Emigrant Wilderness in the 
Stanislaus National Forest, California, and for other purposes''; and 
H.R. 427, a bill ``To provide further protections for the watershed of 
the Little Sandy River as part of the Bull Run Watershed Management 
Unit, Oregon, and for other purposes.''
    For reasons I will detail in my testimony, the Forest Service has 
some concerns with the management direction provided by these bills. 
However, the Department and the Forest Service would like to work with 
the Committee to resolve the issues these bills address and work toward 
outcomes that will serve our mutual interests. Today's hearing is an 
important step in beginning this process.
H.R. 451, ``Mount Nebo Wilderness Boundary Adjustment Act''
    H.R. 451 makes boundary adjustments to the Mount Nebo Wilderness 
area. Eight small areas within the Mount Nebo Wilderness, currently 
covered by special use permit authorizations for water and mineral 
developments, would be removed from the wilderness. We recognize there 
are legitimate issues associated with these permitted uses. We want to 
work with you to resolve these, as well as, continue looking at 
existing statutes governing these facilities. We also recognize that 
when the Mount Nebo Wilderness was established in 1984 we may have 
overlooked some of these areas as maps were being developed.
    If enacted, Section 5 of the bill would amend the Utah Wilderness 
Act of 1984 to further define water uses. We believe the term 
``systems'' could be broadly interpreted and would be applied to all 
wilderness areas established by the Utah Wilderness Act. For these 
reasons we feel there may be unintended consequences that we would like 
to discuss with you further.
    We are committed to working with Chairman Hansen, the Committee, 
and the permittees to resolve accessibility and management issues in 
the Mount Nebo Wilderness.
H.R. 434, ``Emigrant Wilderness in the Stanislaus National Forest, 
        California''
    H.R. 434 would require the Secretary of Agriculture to enter into a 
cooperative agreement to provide for retention, maintenance, and 
operation, at private expense, of the 18 dams and weirs located within 
the boundaries of the Emigrant Wilderness in California. These small 
rock and mortar dams have deteriorated over time as maintenance levels 
have decreased. Some structures are in poor condition and are leaking 
significantly or have washed out and no longer function. The remaining 
structures are in fair to good condition. Because of the age and 
overall character of some dams, several are now eligible for listing on 
the National Register of Historic Places.
    During the 1970's and 1980's, maintenance of the dams was shared 
between the Forest Service and the California Department of Fish and 
Game (CDFG). The last permit issued to CDFG for maintenance and 
operation was in 1975 and included the 11 structures that remain in 
fair to good condition. CDFG declined to participate in maintenance of 
the other seven structures. CDFG ceased maintaining or operating the 
eleven structures in 1988 when the permit expired.
    The Stanislaus National Forest developed an environmental impact 
statement and record of decision in 1998 that outlined management 
direction for the Emigrant Wilderness. The decision document allowed 
for the continued maintenance of eight dams. Under that plan the ten 
other structures would not be maintained but would be allowed to 
deteriorate naturally over time. Except for Y Meadow Lake (which has no 
fish), no lakes would have been eliminated due to the eventual 
deterioration of these ten structures. The record of decision received 
14 appeals and was vacated in 1999 by the Regional Forester.
    On November 8, 2000 the Regional Forester and CDFG agreed to a 
joint strategy for future management of the dams. This strategy 
outlined the need to maintain the eight dams identified in the Emigrant 
Wilderness management direction.
    Recently, Mr. Doolittle and Regional Forester Brad Powell have had 
constructive dialogue regarding the Emigrant Wilderness dams. We want 
this dialogue to continue and would be willing to work with the 
Committee, Mr. Doolittle, the State of California, and other interested 
parties to resolve this issue.
H.R. 427, ``Watershed of the Little Sandy River''
    H.R. 427, if enacted, would add approximately 2,900 acres of 
Federal land in the Little Sandy River watershed to the Bull Run 
Watershed Management Unit. Currently, the Bull Run Watershed Management 
Unit is composed of approximately 95,000 acres of national forest 
system land near Portland, Oregon. In addition, H.R. 427 would amend 
Public Law 95-200 to prohibit timber harvest activities and general 
public access to the entire Bull Run Watershed Management Unit 
including the 2,900 acres added to the unit by this bill. Forest 
related restoration management activities would be precluded on 8,600 
acres of national forest and Bureau of Land Management (BLM) 
administered lands. This includes management options such as thinning 
or selective harvests to reduce fuel hazards in high fire-prone areas. 
These restrictions may not be warranted for the Little Sandy River 
watershed.
    The Administration believes that existing forest plans provide 
significant protection for the health of the Little Sandy River 
watershed and preservation of future options. Specifically, the Little 
Sandy River watershed is designated a Tier 2 Key watershed. This 
designation emphasizes high water quality, as well as fish and 
watershed restoration.
    The point of diversion where Portland draws its water from the Bull 
Run River is upstream from the confluence with the Little Sandy River. 
A water supply option study conducted by the City of Portland in 1992 
dismissed the option of developing the Little Sandy as a municipal 
water source because of issues related to water rights, cost of 
development, limited capacity, and impacts to a variety of resources. 
Therefore, in the foreseeable future it is unlikely that the water of 
the Little Sandy will be used as a municipal water source. A Regional 
Water Supply Plan completed in 1996 by 27 water providers also 
dismissed the option of the Little Sandy Basin as a water supply source 
at that time but advocated protection. In addition, if municipal water 
rights were ever obtained for the Little Sandy River, the requirement 
under the Endangered Species Act (ESA) to maintain in-stream water 
flows for the recovery of Federally listed fish would probably restrict 
water depletion even for municipal use.
    The Oregon Resources Conservation Act of 1996 (Division B of P.L. 
104-208) directed the Secretary of Agriculture to study the portion of 
the Little Sandy River watershed within the Bull Run Watershed 
Management Unit. The Forest Service, in consultation with the City of 
Portland, a private citizen-based Provincial Advisory Committee, and 
other interested parties, completed the study and submitted it to 
Congress in 1998. The study recommended that the area continue to be 
managed under the direction of the NWFP. The reasons cited by the study 
are as follows:
    <bullet> LThe Little Sandy River has not been and currently is not 
planned to be used to provide drinking water; and
    <bullet> LThe waters of the Little Sandy River may be needed to 
provide for the needs of fish species being considered for listing 
under the ESA.
    Since that time, both Chinook salmon and winter steelhead in the 
Sandy River Basin were listed under the ESA.
    BLM has expressed concern with the terminology in section 3, Land 
Reclassification, and other references to land classification in H.R. 
427, urging that the use of public lands classification terminology 
should remain consistent with existing usage and statutes.
    There are many environmental safeguards already in place for the 
Little Sandy River and other sensitive watersheds in the Pacific 
Northwest. We would like to discuss the concepts put forward in this 
bill with the Committee to determine how we can meet the concerns of 
the Oregon delegation under existing authorities.
    In conclusion, I want to re-emphasize that, although there are 
points of concern related to these three bills, both the Department and 
the Agency are committed to working cooperatively with the Committee 
and the bill sponsors toward solutions that will meet our mutual 
concerns and objectives.
    This concludes my testimony. I would be happy to answer any 
questions that you may have.
                                 ______
                                 
    Mr. McInnis. Thank you. I will start. When was it first 
brought to the Forest Service's attention that there was a 
problem with these boundaries in regards to this specific 
problem?
    Ms. Collins. I think we have been--we have known, as we 
have been working through some of these issues with access on a 
case-by-case basis, that there have been issues regarding 
whether or not these water systems were in the wilderness, and 
when they were in the wilderness, what their rights were for 
access. So every time we have gotten a request, we have been 
dealing with it, I think, on an individual basis. Because they 
are in the wilderness, based on the technical language of the 
Wilderness Bill of 1984, we were treating them as part of the 
wilderness, granting access based on what rights they had to 
access at the time the bill was created.
    And that means it is different for each one, so in terms of 
recognizing it as a problem, I think a lot of people have known 
that this has been an issue and a point of tension probably 
since the wilderness bill was created.
    Mr. McInnis. I guess my point, where I am going, Ms. 
Collins, is that if the responsibility for the problem rests 
with the Forest Service, I would expect that the Forest Service 
would be cooperative upon the first contact that there is a 
problem and work to resolve it in that manner.
    Mr. Chairman, do you have any questions?
    Mr. Hansen. Well, not really, except hopefully what Ms. 
Collins said from the Forest Service, that we could work this 
out. Frankly, as I look at over 20 years of passing a lot of 
wilderness legislation, I sometimes wonder if we should just 
draw the line a little higher and not put any of that in 
wilderness, you know, just--but we have got in this habit of 
cherry-stemming. I really don't know if that was the intent of 
the law. We could have put it much higher, put a lot less 
acreage in and not done that.
    We have got a number of--a piece of legislation pending 
that will be coming before these committees about cherry-
stemming. I really wonder if that is the right thing to do, but 
it seems to put a few more acres in, make a few people happy. 
But on this one, if I thought this would have been a hassle, I 
am sure we would have moved that line up much higher and made 
sure that the wilderness line was above where the water system 
came in, but that is water under the bridge now, not much we 
can do about it.
    But I appreciate the comments of the Forest Service. I am 
sure we can work this out. I would appreciate you examining the 
bill very carefully and seeing if you have any heartburn with 
it because it gets reported out of the Committee.
    Ms. Collins. I would like to do that. Thank you.
    Mr. McInnis. Mr. Inslee.
    Mr. Inslee. Thank you, a couple questions.
    I have been advised that there is one provision in the bill 
that affects other wilderness areas and access to water systems 
in other wilderness areas in Utah. Could you explain what the 
impact of that would be on other wilderness areas?
    Ms. Collins. Well, that is that Section 5 that I was 
talking about a minute ago, and what we are concerned with 
there is that the term, ``other systems'' or ``other systems in 
general'' could be broadly interpreted to apply to all 
wilderness areas in the State of Utah, not just the Mount Nebo, 
and not just these water systems, or not even necessarily just 
water systems. And again, I think it is just a matter of us 
sitting down and looking at that language. It might have just 
been a convenient word to pick, but has some other connotations 
to it. So I think we do have to be careful with the language we 
use, so that it does not get more broadly applied.
    Mr. Inslee. Well, I hope that gets resolved. I would echo 
your concerns in that regard. Is there anything that you could 
suggest that would not be too onerous a provision, if the 
wilderness boundary is adjusted, to have some parameters on the 
type of maintenance or construction that is done in the area 
that could help maintain the basic character of the watershed? 
In other words, does it make sense to you perhaps to talk about 
parameters of what type of construction methods to use, or, you 
know, where to put these lines? Is there a way to at least 
consider how to do this from a method that doesn't damage the 
watershed or the rest of the wilderness?
    Ms. Collins. We have--if this bill were to be enacted, we 
would have to amend our forest plans for those access roads 
into those areas. And so what we would have to do is go through 
an environmental process to determine exactly, in a very public 
way, how a road would be upgraded and at what level. So all of 
that would be done and it would be done in the watershed 
context. That is part of that planning process that we would 
have to go through should this bill be enacted.
    Mr. Inslee. Would it make sense to do that now as part of 
this process, to define with some parameters what type of road 
or what type of pipe or what areas to use before you redraw the 
boundary?
    Ms. Collins. You know, I just don't know how to answer 
that. I am not really sure if that would make sense in part 
because how we manage those roads outside a wilderness system 
does come under all the other environmental laws that we would 
have to go through and be obligated to go through under the 
National Environmental Policy Act.
    So, if we were to do that, we would be taking that on as 
part of rewriting this bill.
    Mr. Inslee. Thank you.
    Mr. McInnis. Mr. Peterson?
    Mr. Peterson. No questions.
    Mr. McInnis. Mr. Holt?
    Mr. Holt. No, thank you, Mr. Chairman.
    Mr. McInnis. Ms. McCollum?
    Ms. McCollum. Looking at some comments that were made here, 
provided in the packet, and when looking at moving the 
boundaries, one of the comments that was in here is the Forest 
Service would need to--if the boundaries were moved, they would 
need access on the roads to maintain the water systems. And the 
comment that was made by this individual was the assumption 
that the Forest Service could certainly close those roads to 
the general public except for the maintenance that the county 
would need to get into the water facilities.
    So are you saying that, when you are talking about 
upgrading roads in that, are you talking about upgrading them 
just for routine maintenance, or are you talking about looking 
at upgrading--I am kind of taken aback by your comments, 
because a road for routine maintenance for maintaining those 
facilities certainly sounds different than what you were 
talking about.
    Ms. Collins. We may not have to upgrade anything, and that 
would be part of that analysis. We might, in places where this 
is a municipal watershed and there may be a need to do 
something to maintain that, a lot of that is the process we 
would have to go through as we do that NEPA process. But again, 
that would have to be done for each one of those individual 
access points. One of them I think is a trail and will probably 
stay a trail, for example.
    Ms. McCollum. Do you know if the Forest Service has any 
other record of doing this type of--
    Ms. Collins. Cherry-stemming?
    Ms. McCollum. --road maintenance in the past? And if you 
have, have you had pressure for other outside groups other than 
counties or maintenance facilities to come in with off-road 
vehicles or other access, with motorized vehicles butting up 
into and going into the wilderness area?
    Ms. Collins. I think every time--and this is one of the 
reasons as we develop wildernesses, we are reluctant to do 
cherry-stemming, because it introduces a potential use into an 
area that is natural, and you end up with some law enforcement 
issues. All of those are administrative Forest Service issues 
that we end up managing through--I have managed a number of 
wilderness areas, and when you have close access to a 
wilderness, you are always managing those kinds of problems, 
and so, yeah, that is an issue.
    Ms. McCollum. Mr. Chair, if the Forest Service could 
provide--could provide you and the Committee maybe some 
examples of success stories or problems that they have had with 
this, that would be helpful for me.
    Ms. Collins. I would be happy to do that.
    Mr. McInnis. I might add to that, that remember, as I 
understand it, this wasn't supposed to be in the wilderness 
area anyway, and the reason it is in the wilderness area now is 
because it was a mistake. And now to go on and demand higher 
standards of the people whose right it was to access it in the 
first place because they were mistakenly put in a wilderness is 
patently unfair on its face. So I think we need to keep that in 
mind.
    Second of all, I can tell you in my district, which is 
primarily Federal and public lands, a lot of those rights are 
not owned by the Government, and water out in my area, as you 
may know, it is considered blood. And the fact that they own 
water rights, they have a right to go up there under our 
Colorado law, to maintain and to quantify until you put those 
rights to a beneficial use. So I don't think that the 
Government ought to look like we are really bending over and 
doing somebody a favor to let them have a trail to go up and 
maintain their water facilities on rights that they own that 
have been recognized by the Federal Government since the 
beginning of water time, so to speak, in Colorado.
    Ms. McCollum. Mr. Chair, I wasn't disagreeing with that 
philosophy, with that statement. I was just trying to find out, 
is after those roads have been put in, what other pressures 
those property people, accessing the property, probably don't 
want other folks fooling around up in there either. I just want 
to know what kind of pressures the Forest Service gets in, and 
what is going to be the cost of us maintaining and policing 
this if we need to.
    Mr. McInnis. And certainly that is an appropriate question. 
I just have a little sensitivity when it comes to water and the 
Federal Government's reign over our access to our water rights. 
And as I would reiterate here, this was never intended to be in 
the wilderness in the first place, and I just don't want a 
higher standard put on these people.
    With that, I do thank the witnesses on our first--oh, go 
ahead.
    Mr. Inslee. Mr. Chairman, if I could have one more 
question.
    Mr. McInnis. Certainly.
    Mr. Inslee. Thank you. The desire here by the proponents is 
to make this available for maintaining these water systems. On 
the other hand, if you do take it out of wilderness, it could 
end up, for a wide variety of recreational and other purposes 
that were not associated with the intent of this bill.
    If we were to design a system where you basically took it 
out of wilderness, allowed mechanized access to maintain, if 
necessary, these water systems, but did not open it up for 
other purposes, what would be your recommendation, the best way 
to do that? What would you call it? How would you define it? Do 
you see what I am getting at?
    Ms. Collins. What would we call the sections that are 
inside, that are cherry-stemmed out?
    Mr. Inslee. Correct. In other words, if we wanted to design 
a product to allow the mechanized maintenance of these systems, 
but not open it up to all these other purposes that otherwise 
might be available on Forest Service land, how would we define 
it? What would be the best way to structure it, in your view?
    Ms. Collins. I would probably have to get back to you and 
talk to you to provide more information on that. But off the 
top, I would say that we would manage those as we would manage 
any right to access other places. It is different because it is 
inside a wilderness, but we still have all the authorities to 
gate in cases where we need to gate to keep the general public 
out, so that the permittee can use the site. And again, I 
think, if you look at all of these individual--all eight of 
these, you will find that each one has a little different story 
and a little bit different need, so coming up with an answer or 
a name for all of them may not be the right thing.
    But again, doing the right thing, we could come up with 
some ideas about how to do that for each one of those.
    Mr. Inslee. I would ask you to explore that, and perhaps we 
can talk again in that regard.
    Ms. Collins. That would be great.
    Mr. Inslee. Thank you.
    Ms. Collins. Be happy to do that.
    Mr. McInnis. No further questions. And again, I thank the 
witness. Ms. Collins, if you would remain there, I think you 
are a witness on all three bills, so it will save you having to 
continue to come to the table.
    Ms. Collins. Okay.
    Mr. McInnis. If there are any additional questions for the 
witnesses, I would ask the members to put it in writing, and 
the witnesses can respond. We will keep the record open for 10 
days for those responses.
    Mr. McInnis. Mr. Brougher, you may come on up to the 
witness stand. I would like to introduce our second panel. We 
are going to have Mr. Doolittle, who is on the dais, Mr. Steve 
Brougher, Issues Coordinator for the Central Sierra Club of 
Wilderness Watch, and of course, we have Ms. Collins again for 
this bill.
    [The prepared statement of Mr. McInnis follows:]

  Statement of The Honorable Scott McInnis, Chairman, Subcommittee on 
                 Forests and Forest Health, on H.R. 434

    I would like to thank my friend and colleague Congressman Doolittle 
for his work on the Emigrant Wilderness Protection Act.
    H.R. 434 would give the Secretary of Agriculture the authority to 
enter into a cooperative agreement with non-federal entities to retain, 
maintain and operate at private expense the 18 small check dams and 
weirs--each of which are largely unnoticeable--located within the 
Emigrant Wilderness boundary. The work would be done under terms and 
conditions established by the Secretary and without use of mechanized 
transport or motorized equipment. The bill authorizes $20,000 to be 
appropriated to cover administrative costs incurred by the Secretary to 
comply with the National Environmental Policy Act.
    Although not specifically indicated within the legislation, it is 
widely believed to have been the intent of Congress when it passed the 
Emigrant Wilderness Act in 1974 to preserve the 18 ``check dam'' 
structures. Among others, the Chief Recreation Officer for the 
Stanislaus National Forest, has repeatedly gone on record as stating it 
was his belief these dams were to be maintained. Additionally, report 
language for the 1974 Act explained:
          Within the area recommended for wilderness designation, there 
        are drift fences (5 miles) which will be maintained, but 
        several cabins and barns will be removed within ten years. Two 
        snow cabins will be retained. The weirs and small dams will 
        likewise be retained. (House Report No. 93-989, p.10. April 11, 
        1974)
    In my opinion, the more compelling reason for supporting this 
legislation is the many ecological benefits associated with the 
continued existence of these small structures. These scarcely 
noticeable dams have for decades provided a consistent flow of water to 
lakes, streams and wild meadows, which in turn have provided important 
habitat for fish and various plant and animal species, including 
endangered species. To remove these structures in the name of 
protecting the environment, when in fact their removal will harm a 
number of species and other natural processes, seems to me to be 
counterintuitive.
    Again, I commend Mr. Doolittle for his hard work and leadership on 
this legislation and I look forward to working with him to secure its 
enactment during the 107th Congress. I look forward to hearing my 
colleague Congressman Doolittle's testimony, as well as the testimony 
provided by Ms. Collins of the Forest Service and Steve Brougher of the 
Central Sierra Wilderness Watch.
                                 ______
                                 
    Again, I would remind the witnesses that we expect 
compliance with the five-minute rule, and if you will be 
outside that, you may submit your testimony for the record, and 
it will appear in full in the record. I now recognize Mr. 
Doolittle. Mr. Doolittle, you may proceed.

STATEMENT OF THE HONORABLE JOHN T. DOOLITTLE, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Doolittle. Mr. Chairman, I thank you and the members 
for allowing me to rejoin my old committee.
    This bill has been--actually it has been--this is the 
fourth time I am introducing it. It has been passed out of the 
House twice, once with two negative votes and once unanimously 
in the last Congress, and it was also passed out of the Senate 
Policy Committee as well. The bill has never cleared the 
Senate. In one case a hold was placed on it by one of the 
Senators for some mysterious reason. And then last time the 
Clinton Administration prevailed upon a friendly Senator to put 
a hold on it. So I just wanted to indicate to the members it is 
not new legislation. It deals with a heavily-utilized area in 
my district called the Emigrant Wilderness.
    I am going to ask, Mr. Chairman, that the pictures I have 
be distributed to the members. I don't think I have one for 
every member, but we have enough that you will all see them, 
and I will just refer for a moment. These are small--there are 
18 small dams that were constructed between 1921 and 1954, that 
were constructed in cooperation with two agencies, the U.S. 
Forest Service and Civilian Conservation Corps, and then local 
volunteers.
    When we say ``dams'' that may create an image of Hoover Dam 
or Grand Coolee Dam, but these are very small structures. They 
are made out of the local materials, and as you can see, the 
ones you are looking at in those pictures are pretty 
representative with the exception of one dam, which is 25 feet 
high and is the tallest. For the other 17 structures, there is 
no structure that is over 10 feet tall.
    If you take a look--now, there are pictures on both sides 
of this handout--and if you will look at pictures 5 and 6, 
those are pictures of Middle Emigrant Lake, and that dam that 
you see there is--and by the way, in picture 6, it is in the 
extreme lower right-hand corner, you can see the top of the 
dam, and then you can see, on picture 5, you know, a full view 
of the dam from downstream. It is an 8-foot tall structure, and 
look at the amount of water that is impounded by it there. This 
has created tremendous habitat for fisheries for endangered 
species, and this is hot, dry country in California in the 
summertime. And but for the presence of these dams, this would 
be pretty much dried up. It would be just hot, dry, arid 
country.
    So they are very popular for people to hike in there, and 
by the way, to make a tour of these, you have an 8-hour ride 
one way, even to get in to see them. So it is pretty much for 
the hardy, who even make it up there.
    This was not a wilderness at the time these structures were 
built, but at the time the wilderness debate happened and this 
area was placed in the wilderness, these structures were not 
found to be inconsistent with this. They were described by 
Senator Cranston as substantially unnoticeable, and indeed, 
they are, and yet, they provide a lot of benefit.
    Well, the Forest Service, a few years ago, had made a 
determination that they were going to allow these structures to 
deteriorate so that there wouldn't eventually be any of them. 
That would be a real loss, and if that were to happen, the 
effect of that would be to further concentrate visitors into 
other areas of the Emigrant Wilderness. That would be very 
undesirable. And I would note, Mr. Chairman, that my fellow 
colleague from California, George Miller, who at the time was 
Ranking Member on the Committee, was an enthusiastic supporter 
of this bill precisely for this reason. He felt that there was, 
you know, a very beneficial effect to these. There is huge 
local support in Tuolumne County, where most of these are, and 
that is where this Fred Leighton, the man who kind of 
spearheaded this effort years ago, is from.
    So I would bring this bill to you again, Mr. Chairman. 
Well, even the local environmental groups support it except for 
one, as far as I know, and you are going to hear from that one 
in a minute. I would--I appreciate your hearing me out on this, 
and would ask for your favorable consideration.
    [The prepared statement of Mr. Doolittle follows:]

   Statement of The Honorable John T. Doolittle, a Representative in 
           Congress from the State of California, on H.R. 434

    Mr. Chairman, I wish to thank you for holding this hearing on an 
important piece of legislation, H.R. 434, the Emigrant Wilderness 
Protection Act. As you know, this legislation was designed to provide 
for the maintenance of 18 small dams and weirs within the Emigrant 
Wilderness. As the Committee knows, this is the fourth Congress I have 
introduced this legislation, and versions of this legislation have 
garnered broad bipartisan support, including from this Committee's past 
Ranking Member, Representative George Miller. The bill passed the House 
by a margin of 424-2 in the 105th Congress, and unanimously during the 
106th. On both occasions, my Emigrant Wilderness bill was approved by 
the Senate Committee on Environment and Public Works, only to suffer 
defeat from threats of ``holds'' to be placed by the Clinton 
Administration.
    The Emigrant Wilderness'' 18 check dam system was built between 
1921-1954 through the combined efforts of the U.S. Forest Service, the 
California Conservation Corps, and local volunteer groups. The system 
works to enhance the high elevation lake fisheries and species habitat 
by keeping year-round flows in the streams. Most of these structures go 
unnoticed unless you know exactly where to look for them. They were 
built with the natural rock from the surrounding area, and they are 
insignificant in size, mostly ranging from 3-5 feet in height.
    H.R. 434 will allow a non-federal entity to pay the costs of 
maintaining and repairing these substantially unnoticeable structures 
by allowing the Secretary of Agriculture to enter into a cooperative 
agreement providing a non-federal entity the opportunity to conduct the 
necessary maintenance.
    By providing for the continued maintenance of all 18 dams, we will 
protect the stream flow system within the Emigrant Wilderness that for 
over 70 years has maintained an ecosystem of lakes, streams, and 
meadows of which many species, including the great American Bald Eagle, 
depend upon. It is clear that these small structures are important, as 
the California Department of Fish and Game has stated in an appeal to 
the U.S. Forest Service that ``survey results on file with the Forest 
Service attest to the fisheries'' benefits from the dams, including 
increased volume of water with acceptable levels of dissolved oxygen 
and temperatures that support trout populations. In addition, the 
downstream release of water during dry years has significant benefits 
to aquatic life and the streams'' fisheries.--
    Furthermore, when Congress debated the Emigrant Wilderness Act of 
1974, there was extensive dialogue concerning these structures, and it 
is clear from reading transcripts of those past proceedings that 
Congress intended them to be maintained, and that structures were 
consistent with the 1964 Wilderness Act as they were ``substantially 
unnoticeable.''
    Mr. Chairman, if these small, unnoticeable dams are allowed to 
deteriorate, many of the lakes and streams will dry up during the 
summer and fall months, resulting in negative impacts on the ecosystem, 
fisheries, and the area's tourism economy. Again, I thank you for 
holding this hearing. It is my hope that we can move this bill forward 
with the same resounding support it had in past Congresses.
                                 ______
                                 
    Mr. McInnis. Thank you. Mr. Brougher, you may proceed for 
five minutes.

STATEMENT OF STEVE BROUGHER, ISSUES COORDINATOR, CENTRAL SIERRA 
                  CHAPTER OF WILDERNESS WATCH

    Mr. Brougher. I thank you, Mr. Chairman, and members of the 
committee.
    My name is Steve Brougher, and I am a volunteer with 
Wilderness Watch, a national nonprofit organization, dedicated 
to preservation of America's designated wilderness. I am here 
to testify on behalf of Wilderness Watch about the concerns we 
and 20 other local, state and national organizations have 
expressed with H.R. 434, a bill to require the operation and 
maintenance of 18 dams in the Emigrant Wilderness.
    I began working in the Emigrant as a Wilderness Ranger in 
1975, the year of wilderness designation. I became intimately 
familiar with this special place, and developed throughout my 
22-year career, as a wildlife biologist and wilderness manager, 
a thorough understanding of the importance of preserving such 
remnants of our wildland heritage. I took seriously my 
obligation as a public servant to uphold the intent of Congress 
so eloquently expressed in the Wilderness Act, and have 
continued to work for proper protection since retiring.
    Much of the information you will hear about the value of 
this dam from the proponents of this bill is unsubstantiated 
opinion contrary to the facts. From my years of experience, I 
can say unequivocally that these dams are not essential for 
providing recreational opportunities, for sustaining a fishery, 
or for the ecological health of the Emigrant Wilderness, nor 
are they of any economic importance for local businesses. They 
do adversely affect the wilderness values.
    But do not take my word for it. This information is readily 
available to anyone interested in knowing the facts in reports 
by the Stanislaus National Forest that I have cited in my 
reporting documents.
    The premise of H.R. 434 is to clarify the intent of 
Congress that these dams were to be maintained and operated in 
perpetuity. I provided a discussion of congressional intent in 
my supporting documents. Simply put, congressional intent for 
the dams to remain is a spurious argument that negates key 
underpinnings of the Wilderness Act and is not supported by the 
legislative history. Public Law 93-632 contained no special 
provision for maintenance of the dams, but states that the area 
will be administered in accordance with the Wilderness Act.
    The purpose of the Wilderness Act was to preserve some 
areas in their natural condition, untrammeled by man and 
without permanent improvements. The Act also directs that 
Wilderness will be administered in a way that preserves the 
Wilderness character, and specifically prohibits structures and 
installations.
    H.R. 434 completely frustrates the intent of the Wilderness 
Act by putting nonconforming uses back into the area. Did 
Congress intend to undo the very purpose of the legislation it 
passed when it designated the wilderness? Two examples will 
illustrate the fallacy of this illogical argument and how it 
would play out across the entire National Wilderness 
Preservation system. Some wildernesses contained old homesteads 
that were logged, plowed, etcetera. Should we assume that 
Congress intended for these old homesteads to be restored, the 
encroaching forest cut back, the buildings reconstructed? Many 
wildernesses experienced off-road vehicle use prior to 
designation, and the evidence of that use remains. Should we 
assume that Congress intended for ORV use to continue in these 
areas today?
    The wilderness resource is a condition where wild nature 
prevails without human intervention or artifacts. This resource 
once existed throughout this nation, now greatly reduced from 
its original extent. Dubious arguments about the historical 
nature of the dams overlook a much larger historical 
perspective of national significance. The framers of the 
Wilderness Act recognized the historical significance of the 
wilderness resource to the development and character of this 
country, and took action to preserve the last remnants of this 
historical legacy for future generations. The dams are 80-years 
old or less, compared to the thousands of years that the 
natural environment of the Emigrant has developed and 
flourished without them.
    H.R. 434 is an ill-conceived bill that will degrade 
important wilderness values and set a terrible precedent for 
the entire National Wilderness Preservation system. Special 
legislation to override the Wilderness Act opens the door for 
similar efforts to chip away at this vital conservation law, 
incrementally degrading the values the Act was intended to 
protect. It also interferes with an established 8-year planning 
process for the Emigrant Wilderness and would shut out many 
citizens who have a legitimate interest in the outcome of this 
issue. And despite past assurances that the dams would be 
maintained at no cost to the Government, H.R. 434 contains a 
provision authorizing the appropriation of $20,000 for 
administrative costs, thus requiring taxpayers to pay the cost 
of degrading the wilderness values of the Emigrant Wilderness.
    Maintaining these dams is the antithesis of wilderness. 
Their purpose is to trammel the hydrology and ecology of the 
area for illusionary recreation benefits, not to preserve the 
wilderness character. To realize the powerful vision of the 
Wilderness Act, we must be committed to the idea that we 
respectfully leave areas where wild nature can flourish. This 
type of action will slowly erode what has been preciously 
attained, making it easier to make more changes of increasing 
significance. Eventually the wildlands we thought were 
protected in a natural state in perpetuity will be reduced to 
nothing more than recreational parks that cater to comfort and 
convenience. Thank you.
    [The prepared statement of Mr. Brougher follows:]

    [GRAPHIC] [TIFF OMITTED] T1931.004
    
    [GRAPHIC] [TIFF OMITTED] T1931.005
    
    [GRAPHIC] [TIFF OMITTED] T1931.006
    
    [GRAPHIC] [TIFF OMITTED] T1931.007
    
    [GRAPHIC] [TIFF OMITTED] T1931.008
    
    [GRAPHIC] [TIFF OMITTED] T1931.009
    
    [GRAPHIC] [TIFF OMITTED] T1931.010
    
    [GRAPHIC] [TIFF OMITTED] T1931.011
    
    [GRAPHIC] [TIFF OMITTED] T1931.012
    
    [GRAPHIC] [TIFF OMITTED] T1931.013
    
    [GRAPHIC] [TIFF OMITTED] T1931.014
    
    [GRAPHIC] [TIFF OMITTED] T1931.015
    
    Mr. McInnis. Thank you. Ms. Collins?

 STATEMENT OF SALLY COLLINS, ASSOCIATE DEPUTY CHIEF, NATIONAL 
               FOREST SYSTEM, USDA FOREST SERVICE

    Ms. Collins. Again, we are looking forward to working with 
you on this particular bill as well.
    To summarize again, H.R. 434 would require the Secretary of 
Agriculture to enter into a cooperative agreement to provide 
for the retention, maintenance and operation, at private 
expense, of 18 dams and weirs within the boundaries of the 
Emigrant Wilderness in California.
    Now, these small rock and mortar dams have deteriorated 
over time as maintenance levels have decreased. Some of these 
structures are in poor condition, are leaking significantly, or 
have washed out or no longer function. The remaining structures 
are in fair to good condition. Because of the age and overall 
character of some of the dams, several are now eligible for 
listing on the National Register of Historic Places.
    During the 1970's and 1980's, maintenance of the dams was 
shared between the Forest Service and the California Department 
of Fish and Game. The California Department of Fish and Game 
ceased maintaining or operating 11 of the structures, which is 
what our memorandum of understanding provided for, in 1988 when 
the permit expired.
    The Stanislaus National Forest developed an environmental 
impact statement and record of decision in 1998, that outlined 
the management for all of the Emigrant Wilderness, not just 
these particular dams. A decision document allowed for the 
continued maintenance of eight dams. The record of decision 
received 14 appeals, but that decision, at least the portion of 
the decision related to these dams, was vacated by the Regional 
Forester in 1999. This is significant, because at the current 
time, there is no decision document directing what to do about 
any of these 18 facilities.
    On November 8th, the Regional Forester met with California 
Fish and Game, and agreed to a joint strategy for the future 
management of these dams. This strategy outlined the need to 
maintain eight dams in the Emigrant Wilderness.
    Now, recently, there have been discussions between 
Congressman Doolittle and Regional Forester Brad Powell. I 
think as of last Friday, the Forest Supervisor met with 
Congressman Doolittle and some others, and then Brad Powell may 
be meeting again tomorrow. I just met with Mr. Powell on this a 
few minutes ago, actually.
    We want this dialogue to continue, and are willing to work 
with the Committee, Mr. Doolittle, and the State of California, 
and any other interested parties to try to resolve this issue, 
and that is where I would like to leave that.
    Mr. McInnis. Thank you.
    Mr. Doolittle, do you have questions?
    Mr. Doolittle. Well, maybe just an observation, Mr. 
Chairman. Where there is water, there is life. I don't think 
anything would be served by allowing these structures to 
deteriorate, and they are deteriorating because they have been 
precluded by the Forest Service from being maintained since 
that decision was made a few years ago.
    All we are asking for is--these dams were built by the 
Forest Service in conjunction with volunteers and the CCC, and 
the volunteers would like to be able to go in and maintain 
them. At one point they actually hauled all this material up 
there, you know, rough country, upland country, eight hours to 
travel into, and once they got there with all of this, they 
were informed that they would not be allowed to carry out the 
task of restoration. People arranged to take off time for--you 
know, to get vacation time off. It was a major volunteer 
effort. And when they went to all this trouble, they were 
thwarted. And that just seems to me tragic. It would make--it 
would just concentrate undue use in other parts of the 
wilderness area, where having them would make it much more 
desirable all the way around.
    So that would be my only comment, and I appreciate the 
offer of the Forest Service to work together, and look forward 
to doing that.
    Mr. McInnis. Thank you. Ms. McCollum?
    Ms. McCollum. Thank you, Mr. Chair. I heard in the 
testimony from the Forest Service, you talked about maintaining 
with private funds, and then there was a combination of the 
State of California and the Federal Government at one point in 
time. Can you comment on the appropriation of the bill? 
Currently we are not putting any dollars into maintaining 
these, and this would be something new?
    Ms. Collins. No. Currently we are not, and to--there is 
much more that has to be done. There is maintenance and 
actually upgrading of the facilities, because many of them are 
deteriorated, which would be an initial investment. There are 
planning dollars to do the environmental documentation around 
that, because, as I said, there is no planning document or NEPA 
document in place to do anything on any of those sites right 
now, and that has to be completed. And then there is an annual 
maintenance fee. All of that takes money, and I think the 
partnership with California does offer an opportunity to 
negotiate some of that for some of these sites. They are not 
willing to do all of them. They are willing to consider--I 
don't even think that they have gotten to that point in the 
negotiations, but clearly they have an interest in some of the 
facilities, and so that would be the next step, to work with 
them on partnering on some of that, and we have other people 
interested in helping with that.
    Ms. McCollum. Mr. Chair, if I may, another question. Could 
you comment on whether or not there are exotic species that are 
part of the reason why the dams need to be--or people would 
wish to keep them in place?
    Ms. Collins. Yes. There is at least one species, and I am 
going to see if I can remember it. It is a frog. It is a 
yellow-legged frog, and I do not remember the prefix of it, but 
there is one species that is living in some of the meadows up 
there, and there may be others as well. And we can get you that 
information if you would like that. Would you like us to do 
that?
    Ms. McCollum. Well, I asked about exotic, not endangered.
    Ms. Collins. Okay.
    Ms. McCollum. There are no exotic species then?
    Ms. Collins. Oh, exotic fish species in the sense--
    Ms. McCollum. We are talking about the dam and the water, 
so, yes.
    Ms. Collins. Got you, yeah, in the wilderness. I cannot 
answer whether or not they have been putting exotic species in 
there, but I can get you that answer.
    Ms. McCollum. Mr. Chair, if there is someone else who could 
answer it? I would think that the Forest Service, testifying 
before on this important issue, would know whether or not there 
was exotic fish species, but Mr. Chair, I believe the gentleman 
at the table can answer that question. That is my last 
question.
    Mr. McInnis. Ms. McCollum, maybe you can help me, because I 
am not clear on your question as it has been stated. I do not 
know what you mean by ``exotic.'' Now, my understanding of 
exotic is it is an imported species that--
    Ms. McCollum. Right. Something that is not natural to the 
ecosystem, that is correct.
    Mr. McInnis. So your question, is there something in those 
waters that is not natural to those waters as a result of those 
dams; is that correct?
    Ms. McCollum. Yes.
    Mr. McInnis. Can you answer the question, now rephrased?
    Ms. Collins. The State of California has been seeding those 
lakes with young fish for a long time, but I cannot tell you at 
this time whether they are exotics or not, but I will get you 
that answer. It could be that Steve knows, but I do not know.
    Mr. Brougher. I would be happy to, if that is appropriate.
    Mr. McInnis. Mr. Doolittle, could you add anything to 
assist Ms. McCollum?
    Mr. Doolittle. Well, I really cannot because the lakes have 
been stocked, but they are stocked with trout that do exist in 
this general area. I don't know necessarily, you know, in the 
specific little lakes that were created, but they are in the 
Sierras. There is an issue now about maybe not stocking some of 
the lakes that are in the habitat of the yellow-legged frog, 
which is now endangered, and that the fish are eating the 
frogs, so Fish and Game is looking at that issue, and there may 
be some areas. But I don't think they are looked upon as exotic 
species.
    Ms. McCollum. Mr. Chair?
    Mr. McInnis. Go ahead, Ms. McCollum.
    Ms. McCollum. Mr. Chair, if the other witness--
    Mr. McInnis. I think you need to turn on your microphone.
    Ms. McCollum. It is my voice. Mr. Chair, if I could ask the 
other testifier if they are familiar with bringing fish that 
are not part of the ecosystem into the dam and water area, if 
they have any information?
    Mr. Brougher. Yeah, I can speak to that. Historically, the 
high country of the Sierra Nevada did not support fish above 
about 7,000 feet, except in the southern end of the range. The 
Emigrant Wilderness, therefore, fish were not native to the 
lakes of the high country there.
    Fish were introduced into that area beginning in about the 
turn of the century or the turn of the 20th century, and the 
species that are stocked there are rainbow trout, eastern brook 
trout, golden trout, which is native to the Sierras, but not to 
that region, and occasionally brown trout. So the fishery that 
we are talking about in the Emigrant Wilderness that these dams 
were built to support are not native to that area, and they are 
indeed preying upon and responsible for a decline in the 
yellow-legged frog.
    Mr. McInnis. What was the last part, they are responsible 
for what?
    Mr. Brougher. That the introduction of those fish are in 
large part responsible for the decline of the mountain yellow-
legged frog.
    Ms. Collins. I also have been told that what they have been 
introducing there is brown trout.
    Mr. Doolittle. Mr. Chairman, I would add that these fish 
are very tasty for the endangered species bald eagles that 
thrive in those areas because of those lakes.
    Mr. McInnis. Mr. Simpson?
    Mr. Simpson. Thank you, Mr. Chairman. Frankly, I find this 
discussion kind of bizarre. As I understand it, these dams were 
built before the Wilderness Act went into effect, and the 
Wilderness Act, Congress clearly has the power to make 
designations within--when it creates a wilderness, to preserve 
these dams or to take them out, or to do whatever they want to 
do, and apparently they made the decision to leave those dams 
in place when they created this wilderness.
    And now you want to go in and remove those dams, so you 
want us to trammel upon the land to make it appear that it was 
never trammeled on? I mean, this is bizarre, as far as I am 
concerned.
    Mr. Brougher. Would you like me to respond to that?
    Mr. Simpson. Yeah.
    Mr. Brougher. Okay. Yes, they were present before they 
became wilderness, and at the time of designation they were 
recognized as being present. But Congress did not write into 
legislation any exception to the provisions of the Wilderness 
Act. There are times when that does occur. In this case, they 
chose not to do that. They chose to recognize the dams were 
there, that it did not detract from making the area wilderness, 
but that they did not make any special provision to continue 
maintenance of these dams. Instead, they have a provision in 
that bill that says that the wilderness will be managed 
according to the provisions of the Wilderness Act.
    Our position on this is not to remove the dams, but rather 
just to leave them, no longer maintain them, and allow nature 
to take its course, and over time, to restore these areas back 
to a more natural condition.
    Certainly right now many of these dams have fallen apart, 
have been overgrown with vegetation. It would require a 
substantial disturbance to these areas not only to rebuild 
them, but then to continue to operate them with fluctuating 
water levels as they were designed to do.
    Mr. Simpson. Do these dams destroy your wilderness 
experience?
    Mr. Brougher. Well, for me they do, and for a lot of 
people, they do. And it is not just a matter of personal--you 
know, personal like or dislike, it also has to do with the 
intent of the Wilderness Act to manage areas in a natural 
condition, that is, in a way in which nature can take its 
course, in which humans do not manipulate, actively manipulate 
the environment to create a certain effect.
    Mr. Simpson. I look at these pictures, and I kind of--I 
find it strange that they would degrade your wilderness 
experience. Beavers make dams and I guess they don't degrade 
the wilderness experience, but if you stack a couple rocks 
together, that is a problem, which is what they are. You don't 
think that when they recognized these dams in designating this 
a wilderness area, that their intent was to maintain them, that 
they said, ``Yeah, those dams are there and we are just going 
to let them fall apart'', that that was their intent?
    Mr. Brougher. No, I don't believe that was the intent. If 
you look at the legislative history, the complete legislative 
history--and I am not going to go into all the details of that; 
I have provided that in my supporting documentation, it would 
take a while to discuss it all--but if you look at that entire 
history, I think that you will come to the conclusion that 
Congress had not intended--I mean, they saw the dams, they 
discussed them, there was discussion of retaining them. 
Ultimately, in the final bill, that was not done.
    We also have correspondence from former Senator Cranston, 
indicating--he was a sponsor of a bill for the Emigrant 
Wilderness--indicating that he did not feel that there was 
congressional intent, I mean he was involved, but he had no 
intent for these dams to be maintained in perpetuity.
    Mr. Simpson. Thank you, Mr. Chairman. I find this just 
really a strange situation, where you go in and create a 
wilderness, you preserve a wilderness area that obviously has 
some human activity that has occurred on it, and then our 
intent is to pretend that no human activity has ever occurred 
on it. I mean, I find that a bizarre situation, I really do. I 
can understand going into an area where there is true 
wilderness, where humans have not impacted, they have not built 
dams, have not built roads, that type of thing, and saying, 
``We are going to preserve this as a wilderness.'' But you can 
go to the City of Blackfoot, Idaho and say, ``We want to make 
this a wilderness. We are going to tear down all the buildings 
or let them fall down by nature.'' I find that contrary to the 
Wilderness Act. So I don't have any more questions. I am still 
trying to figure out what the heck is going on.
    Mr. McInnis. Mr. Doolittle, do you want to do a quick wrap-
up?
    Mr. Doolittle. Let me just do a quick wrap-up. In the 
Committee report for the 1974 Wilderness Act, it says the 
following, quote: ``Within the area recommended for wilderness 
designation, there are drift fences (5 miles), which will be 
maintained, but several cabins and barns will be removed within 
10 years. Two snow cabins will be retained. The weirs and small 
dams will likewise be retained.''
    Now, that was in 1974, and in 1977 a former historic 
Chairman of this Committee, Mo Udall, there was a bill passed 
out of here that pertained to wilderness, and in the language 
of the bill it says the following. Well, actually, this goes 
right to the--this is the counterpoint to Mr. Brougher's 
testimony. This is what it says in the Committee report, quote: 
``Numerous other aspects of the so-called purity issue have 
been debated over the past several years, and especially during 
the hearings on H.R. 3454''--of which this is the report for. 
``In some instances, the strictest interpretation of the 
Wilderness Act has led to stringent `purity criteria' which 
have prejudiced the potential recommendation of an area for 
further wilderness consideration. In others it has led to 
public opposition to wilderness proposals based on what is and 
what is not perceived to be, sometimes erroneously, permissible 
in wilderness areas, and of the provisions of the 1964 
Wilderness Act. After more than a decade of experience, the 
Committee recognizes the problems with different 
interpretations the Wilderness Act creates. The Committee was 
pleased to receive the new Administration's less stringent 
interpretation of the Wilderness Act, and agrees that this new 
direction is in order. To further clarify matters, the 
Committee considers it appropriate to comment in some detail on 
some of the issues that current policies attempt to resolve and 
to offer its guidance as to how the Wilderness Act should now 
be interpreted as it relates to certain uses and activities.''
    I'm just going to skip down to the one that pertains, 
fisheries enhancement. ``Fisheries enhancement activities and 
facilities are permissible and often highly desirable in 
wilderness areas to aid in achieving the goal of 
<plus-minus>preserving the wilderness character of the area, 
<plus-minus>as stated in Section 4(b) of the Wilderness Act. 
Such activities and facilities include fish traps, stream 
barriers, aerial stocking, and the protection and propagation 
of rare species.'' End of quote from the bill.
    So, Mr. Chairman, that quote reveals there is a split. 
Amongst most of the mainstream environmental community, 
certainly locally, heavily supports this bill. As you can see 
from the pictures, those are very desirable areas that would 
add to most people's view of a wilderness experience. Clearly, 
it is not purity. Purity would result in hot, dry steep slopes 
during the fall and late summer.
    So I thank you for this opportunity to have this hearing, 
and look forward to working with you.
    Mr. McInnis. I thank Mr. Doolittle. I also thank the 
witnesses on our second panel. The witnesses may have some 
additional questions, and if you do, please ask for a response 
in writing. We will hold the record open for 10 days in regards 
to that. Thank you panel.
    Mr. McInnis. I will now introduce our third panel. On Panel 
3 we have the Honorable Earl Blumenauer from Oregon, and Mike 
Rosenberger, Administrator, Bureau of Water Works, Portland, 
Oregon. Again, I would remind the members that your statements 
are limited to five minutes. Congressman, you may proceed.
    [The prepared statement of Mr. McInnis follows:]

  Statement of The Honorable Scott McInnis, Chairman, Subcommittee on 
                 Forests and Forest Health, on H.R. 427

    I thank the gentleman from Oregon, Mr. Blumenauer, for taking the 
time to testify before the Forests Subcommittee on H.R. 427.
    H.R. 427, the Little Sandy Watershed Protection Act, would, in 
part, extend the boundary of the Bull Run Management Unit to include 
the hydrologic boundary of the Little Sandy watershed, an area spanning 
approximately 2,600 acres.
    Up front, I must say that I have real concerns with this 
legislation. In my opinion, it is critical that local land managers be 
given maximum flexibility to manage their lands. After all, they know 
these resources a lot better than the folks back here in Congress. And 
as most land managers would attest, you never know when you're going to 
need to adjust your management strategy for any number of unforeseen 
reasons. This legislation would restrain that flexibility in the case 
of the Little Sandy by statutorily imposing inflexible restrictions 
that, under the existing management plan, already exist. In my mind, 
Mr. Blumenauer, a case has to be made as to why this designation is 
actually needed, again, recognizing that local forest managers have 
already gone to great pains to protect this resource.
    Having said that, I look forward to hearing the testimony of my 
colleague Mr. Blumenauer, as well as the comments of Michael 
Rosenberger of the City of Portland and Sally Collins of the Forest 
Service.
                                 ______
                                 

STATEMENT OF THE HONORABLE EARL BLUMENAUER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Blumenauer. Thank you, Mr. Chairman. I appreciate your 
courtesy, and the opportunity to make a presentation with you 
this morning, this afternoon. It seemed like this morning when 
we started.
    The subject of today's bill, the Little Sandy Watershed 
Restoration Act, is something that I have been working on, 
beginning with efforts with Senator Mark Hatfield in 1996, to 
deal with the protection of the Bull Run Sandy River Watershed 
area that provides water to almost one-quarter of Oregon's 
population.
    The legislation that is before you today is the result of 
extensive work. It has the unanimous support not only of the 
House delegation, but there is companion legislation that has 
been introduced by the two U.S. Senators, in fact, passed the 
Senate in the last session of Congress.
    It speaks to an area where there is 109 years of history 
dating back to a proclamation from President Harrison, 109 
years ago. Ninety-seven years ago was the first congressional 
action. This is an effort that is designed to protect the water 
and the fragile fish habitat. There is, as near as I can tell, 
no objection to the proposal that we have entered into before 
you that would extend the boundary of the Bull Run Management 
Unit to include the hydrologic boundary of the Little Sandy 
Watershed. It protects a critical area of potential drinking 
water, habitat for the Portland Metropolitan area. It extends 
protection of water quality to deal with some of our efforts at 
fish recovery under the ESA in the metropolitan area, and it 
would authorize Clackamas County to seek watershed restoration 
projects, and maintain the balance in terms of resources within 
the Oregon O&C counties.
    It is something that is important to the City of Portland 
that I represent, but also to people in the metropolitan area, 
and represents the sort of balanced thoughtful approach to 
protect habitat, protect water resources, and work 
cooperatively with the Federal Government as a partner.
    I would like, if I could, to introduce Mike Rosenberger, 
who it is my privilege to work with when I was Portland's 
Commissioner of Public Works, a gentleman with long history in 
this issue, who can speak to the specifics of the proposal.
    I will remain in case there are any questions of 
observations you wish to direct to me.
    [The prepared statement of Mr. Blumenauer follows:]

    Statement of The Honorable Earl Blumenauer, a Representative in 
             Congress from the State of Oregon, on H.R. 427

    Mr. Chairman, and members of the Subcommittee, I am Congressman 
Earl Blumenauer, representing the 3rd Congressional District in Oregon. 
I appreciate the opportunity to come before you today, to describe our 
efforts to protect the Little Sandy Watershed. As you know, my 
distinguished colleagues, Senator Ron Wyden and Senator Gordon Smith, 
have introduced an identical measure in the Senate (S. 254), and I 
appreciate the Committee moving so rapidly on this matter.
    Perhaps no resource is more fundamental to the livability of our 
communities than clean, safe drinking water. Fresh, pure water is 
critical for life and health and is not necessarily a renewable 
resource. There is no environmental goal that should have higher 
priority than protecting our valuable sources of drinking water. To 
ensure the health of our families today and of our communities in the 
future, we must act to ensure that our water supplies are protected and 
used wisely.
    H.R. 427 recognizes that the Bull Run Watershed is the Portland 
area's cleanest and most reliable drinking water source, serving nearly 
one million residents. Established in 1892, the Bull Run Reserve was 
hailed as a drinking water source that could be shielded from human 
activities that pollute water. After its first municipal use in 1895 a 
``phenomenal decrease'' in typhoid fever resulted. Protection of water 
quality and quantity, as well as preservation of the forest, was 
enhanced in 1904 under President Roosevelt's Trespass Act, which 
allowed only those who affirmatively protected the forest and its 
streams to enter the reserve.
    However, during the 1950's, these protections were threatened when 
illegal logging began in the Bull Run. Logging was also extended to the 
Little Sandy Watershed, and by 1993, more than 350 miles of roads were 
built, mostly to facilitate logging, and sediment from these activities 
flowed into drinking water reserves.
    In 1996, Congress established partial protection for the ``Bull Run 
Management Unit'' (BRMU) through the Oregon Resources Conservation Act. 
Since then, citizens, the City of Portland, and officials throughout 
the region have championed enacting permanent protections for the 
public lands in the Bull Run Management Unit and the Little Sandy 
Watershed. In fact, work to protect Bull Run began with the efforts of 
former Senator Mark Hatfield. A bill to include the Little Sandy 
watershed in the Bull Run Management Unit was introduced in both the 
105th and 106th sessions of Congress.
    The bill before you today, H.R. 427, extends the protection of Bull 
Run Management Unit by nearly 2600 acres to include the Little Sandy 
drainage and provides for consistent land management protections for 
all lands within the Bull Run Management Unit. Why must we protect the 
Little Sandy? It is a potential future source of drinking water for the 
Portland area. It is also a critical habitat for endangered fish 
species, including steelhead, cutthroat trout and chinook.
    I am aware that some have raised concerns with this bill, and I 
would like to take a moment to address those. Last year, during a 
hearing in the Senate, the U.S. Forest Service testified that it stood 
in opposition to the legislation on the grounds that adding additional 
protection for the Little Sandy was not warranted. They claim the 
Northwest Forest Plan provides adequate protection for this important 
resource and to the federal lands within the Bull Run Management Unit. 
Yet as of today, 37% of the Little Sandy Watershed has been lost to 
timber harvest, and much of that was through damaging clearcut methods. 
Such practices can have a detrimental effect on water quality and water 
quantity, not to mention the fragile forest ecosystem that, 
particularly in the Little Sandy, supports several species of 
endangered fish that are listed under the Endangered Species Act, as 
well as probably countless smaller organisms that have never been 
surveyed. Under H.R. 427, we will finally achieve a lasting, permanent, 
and meaningful protection for the Little Sandy and all of the lands 
within Bull Run Management Unit.
    Opponents also point to studies from the last decade which they 
claim dismiss the option of the Little Sandy as a future potential 
drinking water source. I am fortunate to be joined today by Mike 
Rosenberger, chief administrator for the City of Portland's Bureau of 
Water Works. His testimony describes why it is critical that the City 
maintain a full range of potential options for the future when it comes 
to managing a sustainable, long-term vision for drinking water, not 
just in Portland, but throughout the region. But I would also add that 
I think, given the challenges of meeting future demand for a clean, 
reliable drinking water supply, and fulfilling our Endangered Species 
Act requirements, local governments and their citizens deserve to have 
every possible tool at their disposal. By securing permanent protection 
for the Little Sandy, H.R. 427 provides just such a tool.
    This bill enjoys strong support from the City of Portland. As one 
who believes that government at all levels must work together more 
effectively, I see this effort as a model for that kind of cooperation. 
In addition, the bill is supported by local citizen groups, and local, 
statewide, and national environmental organizations.
    The abundant water supply of the Pacific Northwest has been a 
blessing, but it is also a responsibility. Protecting it is an 
obligation that we must not evade.
                                 ______
                                 
    [Additional material submitted for the record by Mr. Blumenauer 
follows:]

[GRAPHIC] [TIFF OMITTED] T1931.039

[GRAPHIC] [TIFF OMITTED] T1931.031

[GRAPHIC] [TIFF OMITTED] T1931.032

[GRAPHIC] [TIFF OMITTED] T1931.033

[GRAPHIC] [TIFF OMITTED] T1931.034

[GRAPHIC] [TIFF OMITTED] T1931.035

[GRAPHIC] [TIFF OMITTED] T1931.036

[GRAPHIC] [TIFF OMITTED] T1931.037

    Mr. McInnis. Thank you, Mr. Blumenauer.
    Mr. Rosenberger?

  STATEMENT OF MICHAEL ROSENBERGER, ADMINISTRATOR, BUREAU OF 
             WATER WORKS, CITY OF PORTLAND, OREGON

    Mr. Rosenberger. Thank you, Congressman Blumenauer.
    Mr. Chair and members of the Subcommittee, I am Mike 
Rosenberger, Administrator of the Bureau of Water Works of the 
City of Portland, Oregon. I also serve as president of the 
Association of Metropolitan Water Agencies, an organization of 
public water utilities serving 110 million people in the United 
States.
    The mission of the Portland Water Bureau includes water 
supply and distribution, as well as being a leader on watershed 
protection issues such as water quality, habitat, and species 
protection in the Bull Run Management Unit. I am here on behalf 
of Commissioner Sten today, who regrets his inability to attend 
due to pressing matters before the city council.
    The Little Sandy Protection has been a very high priority 
for Commissioner Sten and the rest of our city council. On 
behalf of the citizens of Portland and the surrounding region, 
I thank you for taking the time to conduct this important 
hearing so early in the year. I would also like to thank our 
Oregon delegation, especially Congressman Blumenauer.
    I am very pleased to be here today to lend Portland's 
strongest possible support to H.R. 427. The Bull Run Management 
Unit provides water to a quarter of Oregon's population. Today 
we ask for protection of the Little Sandy portion of the 
watershed so that all of the lands in the Bull Run Management 
Unit can be managed together to meet our community's water 
supply needs and support recovery of threatened fisheries' 
resources. The map attached to my written testimony provides an 
overview of how the Little Sandy Watershed relates to the 
larger picture.
    It is important that we have our management agreement 
secured by law so that we have the utmost certainty we need in 
order to do proper planning for fish recovery and potential 
future water supply. The law will not constitute a loss of 
privilege for any entity. Instead, it will give land managers 
clear direction.
    The protection provided by H.R. 427 insures consistency 
across the entire Bull Run Management Unit. Land managers will 
manage this important watershed for both water supply and the 
threatened and endangered species, including salmon and 
steelhead. This bill will help protect the quality and quantity 
of water supply because protected for us, provide cooler, 
higher-quality water, and a more natural release of water 
through snow melt and local groundwater inflow.
    This law will be one of the foundations of the City of 
Portland's major initiative to assist in the recovery of 
threatened and endangered salmon and steelhead in an area that 
is rapidly growing and developing. The Sandy River basin, of 
which the lands and waters of the Bull Run Management Unit are 
a part, represents some of the best habitat in the entire lower 
Columbia River system.
    Because Congress has consistently been willing to help, the 
Bull Run Management Unit is the envy of water systems all over 
the country. Few actions are seen as being so clearly 
beneficial in providing high-quality drinking water and 
supporting viable populations of fish and wildlife, as lands 
and waters protected from development and unsupervised human 
access.
    Mr. Chairman and members of the committee, thank you again 
for your time, consideration and leadership. I look forward to 
working with you toward the goals we share and would be pleased 
to answer questions.
    [The prepared statement of Mr. Rosenberger follows:]

    NOTE: Responses to questions submitted to Mr. Rosenberger 
for the record were not available at the time of printing. 
Copies will be retained in the Committee's official files.

[GRAPHIC] [TIFF OMITTED] T1931.021

[GRAPHIC] [TIFF OMITTED] T1931.022

[GRAPHIC] [TIFF OMITTED] T1931.023

[GRAPHIC] [TIFF OMITTED] T1931.024

[GRAPHIC] [TIFF OMITTED] T1931.025

[GRAPHIC] [TIFF OMITTED] T1931.026

[GRAPHIC] [TIFF OMITTED] T1931.027

[GRAPHIC] [TIFF OMITTED] T1931.028

[GRAPHIC] [TIFF OMITTED] T1931.029

    Mr. McInnis. Thank you.
    Ms. Collins?

 STATEMENT OF SALLY COLLINS, ASSOCIATE DEPUTY CHIEF, NATIONAL 
               FOREST SYSTEM, USDA FOREST SERVICE

    Ms. Collins. I am delighted to be on a panel with fellow 
Oregonians. I have been hearing about this from the other side 
of the mountains for kind of a long time. And again we support 
the intentions and interests that have been discussed here, and 
feel like there is a huge opportunity for us to resolve any 
differences.
    I just think there are a few things that we need to 
consider as we look at this bill. Again, if enacted, H.R. 427 
would add approximately 2,900 acres of Federal land in the 
Little Sandy Watershed to the Bull Run Watershed Unit. 
Currently the Bull Run Watershed Unit has 95,000 acres of 
National Forest System land near Portland, and in addition, 
what this would do is it would prohibit timber harvest 
activities and general public access to the entire Bull Run 
Watershed Management Unit. Now, right now the public can't 
access the Bull Run Management Unit. As you know, most 
watersheds, commercial watersheds, don't allow people in there 
for protecting the water, but right now, the Little Sandy area 
within the Bull Run Watershed Unit is available for public 
access, and there are people that use it for that purpose.
    In addition, forest-related restoration, forest management 
activities would be precluded from a total of 8,600 acres of 
National Forest and BLM land that would be included in this 
buffer area, and the concern there would be, and what needs to 
be acknowledged or recognized is that the actions we could take 
as a management agency to reduce fire hazards to the watershed 
may not be possible with this bill, and may not be warranted.
    The Administration really believes that the existing forest 
plans, including the Northwest Forest Plan, provide protection 
for the health of the Little Sandy Watershed and the 
preservation of future options, and specifically the Little 
Sandy Watershed is designated as a Tier 2 Watershed. I had 
managed under this Northwest Forest Plan when I was in Oregon, 
and can assure you that that provides high water quality as 
well as fish and watershed protection and restoration 
opportunities.
    Let me just talk a little bit about the opportunity for 
this to be part of the water system in Portland. First of all, 
the point of diversion where Portland draws its water from the 
Bull Run Watershed is upstream from the confluence of the 
Little Sandy River. A water supply option study conducted by 
the City of Portland in 1992 dismissed the option of developing 
Little Sandy as a municipal water source. Because of issues 
related to water rights--there are no water rights right now 
that they have to that--cost of development, limited capacity 
and the impacts to a variety of resources. In addition to that 
a regional water supply plan was completed in 1996 by 27 water 
providers that also dismissed the option of Little Sandy Basin 
as a water supply source at that time. But it can advocate a 
protection--
    Mr. McInnis. Ms. Collins, may I interrupt you for just a 
second?
    Ms. Collins. Sure.
    Mr. McInnis. I am just trying to get a picture of what you 
are saying. Are you telling me that the diversion to Portland 
is not within the watershed, it is upstream from the watershed?
    Ms. Collins. It is the--right. It is upstream from the 
confluence of the Bull Run Watershed. So anything that we do in 
this area, in other words, would not have an impact on the 
water qualify in Portland.
    Mr. McInnis. Thank you.
    Ms. Collins. Does that make sense? It is not part of the 
water quality--the water that goes into the water system in 
Portland right now.
    Mr. Blumenauer. And the point I was making, Mr. Chairman, 
is that is not where the region is now. We are looking at this 
as a potential water source for the region, and we--the 
region--and Mr. Rosenberger can go on in greater detail in 
terms of where we were 10 years ago, and looking at other 
options, this is very definitely a part of what the region is 
looking at, and the City of Portland, to try and provide water 
for a large and growing metropolitan area, where water is in 
fact in short supply, and dealing with our strategies for 
restoration of habitat. There have been a lot of changes that 
have taken place in the course of the last 10 years.
    Mr. McInnis. Well, Congressman, I just don't--
    Mr. Blumenauer. And we will be happy to detail those as you 
see fit.
    Mr. McInnis. I just have some reluctance in seeing a 
municipality reach outside the point of diversion for 
additional control over possible water into the future. My 
understanding, you have no water rights in that area. This is 
from the testimony, and I stand corrected if you correct me, 
and that there are no water rights for you to access in the 
area.
    Ms. Collins, by the way, I will come back to you to finish 
your statement. I didn't mean to interrupt, but this is a very 
critical point, because I assume from the testimony of Mr. 
Rosenberger, even the Congressman, that we are talking about 
the watershed of Portland, Oregon. And now that we are not, 
this has lost a lot of credence with me. I just am confused.
    Go ahead, Mr. Congressman.
    Mr. Rosenberger. Congressman, let me see if I can take a 
shot at this. We are talking about the Bull Run Management 
Unit, the entire Bull Run Management Unit, and Congressman 
Blumenauer talked about some of the history of that. Within the 
Bull Run Management Unit there is the Little Sandy Watershed 
and 22,000, 25,000 acres. The rest of the Bull Run Management 
Unit is the Bull Run Management Unit, and is managed under the 
auspices of ORCA, Oregon Resource Conservation Act. The Little 
Sandy Watershed portion of the Bull Run drainage is managed 
under the auspices of the Northwest Forest Plan. Part of our 
concern is that those are two different directions to land 
managers. And one of the main things of this bill is to have 
the entire Bull Run drainage managed under one set of rules, a 
consistent set of rules to that the Forest Service and the 
city, which as a matter of fact are working better together now 
than they have for years, have one set of standards to deal 
with water quality, water quantity, and the issues of 
endangered species.
    Mr. McInnis. Mr. Rosenberger, in doing that, one, it is an 
area that you don't need today, as I understand the testimony. 
It is an area that it is--you hope by some, frankly, some wave 
of the magic wand, that you access water rights sometime in the 
future that as I understand aren't available today, you are 
going to limit public access, which the Forest Service has 
testified there is public utilization of this area right now, 
and more importantly than anything we have heard, is you are 
going to limit the Forest Service's capability to help manage 
that area for forest fires.
    Mr. Rosenberger. Congressman, maybe I could speak to both 
of those.
    Mr. McInnis. Let me do this. In all fairness, Mr. 
Rosenberger, I interrupted Ms. Collins, and I am now detracting 
from her time and her statement. Why don't I let her finish, 
and then we will come back to you and we will proceed with this 
discussion.
    I am sorry, Ms. Collins, you may proceed.
    Ms. Collins. I just had a couple more things I wanted to 
say. In addition, I was going through a couple of these studies 
that had been done. An additional study by the Forest Service 
in 1988, along with our provincial advisory committee that we 
have, an advisory committee of interested parties, we completed 
a study and submitted it to Congress at that time, which 
recommended that the area be managed under the Northwest Plan, 
which is all of those restrictions that I talked about, and 
cited two reasons. One, that the Little Sandy River has not 
been and currently is not planned to be used to provide 
drinking water. But second, that the waters of the Little Sandy 
River may be needed to provide for the needs of fish species 
being considered for listing under the Endangered Species Act. 
And since that time, both the Chinook salmon and the winter 
steelhead in the Sandy River Basin have been listed under ESA.
    I guess the main point here is that there are many 
environment safeguards in place for the Little Sandy River, as 
well as other sensitive watersheds in the Pacific Northwest, 
and we are interested in discussing the concepts in the bill 
with the Committee to see if there is some common ground that 
we can't come to within existing authorities, and looking 
forward to doing that. Thanks.
    Mr. McInnis. Well, Ms. Collins, let me then ask you--
because I am still confused, so you have got to help me.
    Ms. Collins. Okay.
    Mr. McInnis. If we proceeded with the Congressman's 
request, what restrictions does it put on you under your 
current management philosophy or what you are currently 
managing?
    Ms. Collins. Okay. If you can picture this 95,000 acres 
that is in the Bull Run Watershed, a portion of that, about, I 
don't know, 20 some thousand acres is included in this Little 
Sandy portion of that, and we would be adding 2,900. In that, 
we already--a portion of that watershed allows public access 
and allows some restoration activities, including timber 
harvest, which we have not done since 1992 and have no plans to 
do, but would like to have the option to do some restoration 
for fuels reduction. That is a potential. We have no plans, 
again, to do that. But it is a mechanism that will protect the 
watershed that we would like to keep intact if possible. So 
that is one.
    And then the other one, and I really do commend--people are 
talking a lot, and I talked to Gary Larson, the Forest 
supervisor, last night, who has been working closely with you. 
And I think that we all have an understanding of this, but 
there are people that do use that for more primitive recreation 
opportunities since the rest of the watershed is not open, and 
this portion would be--remain open.
    Mr. McInnis. Ms. Collins, let me ask you the following 
question, then I will go to my colleagues who are anxious to 
join the discussion.
    Ms. Collins. Okay.
    Mr. McInnis. But if we put this bill into place, what 
protections, outside of limitation of public access, what other 
protections would they need that you don't already provide in 
your current management of that area? What is to be gained by 
what they want to do other than perhaps stop public access?
    Ms. Collins. Well, that is why, I think, when listening to 
the testimony, there is a huge opportunity for us to work 
together to meet our common interests, because currently with--
and I am not sure when these discussions started, if they came 
before the Northwest Forest Plan or not, but with the 
protections in the Northwest Forest Plan for this particular 
kind of watershed, there is a great deal of resource protection 
for water quality as well as wildlife habitat.
    Mr. McInnis. That currently exist?
    Ms. Collins. Currently exist, yes, very high level.
    Mr. McInnis. Thank you. Ms. McCollum?
    Ms. McCollum. Thank you, Mr. Chair.
    To the Congressman, could you tell me if there is any 
opposition from some of the other units of Government that 
would be in the Watershed? I don't know how you are exactly 
organized.
    Mr. Blumenauer. To the best of my knowledge, the counties 
and cities that are affected, the county in which it resides 
and the others in the area, are united in support of this. 
Number one, this is an area that is in transition. I strongly 
disagree with the notion that--the Chairman's point that we do 
not have access to the water. Just speaking to the Chairman's 
point about water rights, we will be happy to provide you with 
information.
    First of all, there are two dams that are being removed 
that were part of a private utility, as part of the 
restoration, and whether we think there is a claim for this 
municipality itself, there was a much larger area that has been 
involved historically. We will provide you with that 
documentation, Mr. Chairman. We think that there is a claim 
already.
    It is also an area where there is serious evolution in the 
last 10 years in terms of trying to have species restoration. 
The Forest Service has been evolving over time with its 
attitude regarding this. This has been an area of fierce 
contention for the last 25 years that I have been involved in 
Federal Government and local activities. And I do agree with 
Ms. Collins' point in terms of it being an evolution. But I do 
think there is a strong case to be made, and the overwhelming 
public support is in support of this additional protection, and 
it has bipartisan support of both our senators, and as I say, 
our delegation.
    Ms. McCollum. And so from what I am hearing from the Forest 
Service, I heard you say, ``We have no plans, we have no plans, 
we have no plans'' on many different issues. But I am hearing 
from the Congressman and from the person representing the water 
works area, that the City of Portland, working with the region, 
you are planning for the future so that a crisis does not come 
about. Did I hear that correctly, gentlemen?
    Mr. Blumenauer. Yes. And this is not water just for the 
City of Portland. This is water that is provided to a quarter 
of the state's population, and goes--in fact, they are looking 
at regionalizing it beyond the 800,000 people that currently 
use water from this Bull Run Watershed, and looking for a 
cooperative effort that spreads it throughout the metropolitan 
area.
    Ms. McCollum. And so you need one person to take the lead 
on it, one organization, one group to move forward, working 
with the other units, and Portland has taken the lead?
    Mr. Blumenauer. And to have the highest level of 
protection, certainty and management, not differential levels. 
I mean, there are some good things, but it is not the best. 
This is one of two major unfiltered water systems in the United 
States--I think the only other one is in New York--that because 
of the purity of it, that has been able to be maintained. So 
people in both parties, private sector, public sector, are 
incredibly concerned about this, to be able to maintain the 
quality and the supply. And if there are details regarding 
management of the--it is not just 2,800 acres for forest fire 
protection. The City of Portland has an even higher area of 
concern for tens of thousands of acres, 65,000, that is in the 
Bull Run. So this is an ongoing discussion, and it is an area 
where the Forest Service has made a great deal of change in 
time, and I appreciate the evolution that they have taken, 
where they have learned that actually the local people had some 
pretty good concerns and issues, and they have modified their 
positions over time, and we appreciate that, and we think we 
ought to continue the discussions about fire protection, 
because that is something that is not just 2,800 acres. If we 
have problems in this watershed, it affects water for 800,000 
people, maybe a million people or more, and it is more than 
just 2,800 acres.
    Mr. McInnis. Thank you. Mr. Simpson.
    Mr. Simpson. Mr. Chairman, thank you. I really don't have 
any questions, other than, as I understand it, this area that 
is managed by the Forest Service, is what you call Tier 2 
protection, right?
    Ms. Collins. I am sorry?
    Mr. Simpson. It is a Tier 2 level, you mentioned in your 
testimony?
    Ms. Collins. Yes, yes. It is a Tier 2 level watershed, 
which means it has got extra levels of protection in terms of 
buffering streams and that sort of thing for management 
activities.
    Mr. Simpson. And as I understand it from the testimony, 
really, the only two things that we are really talking about 
that are different, other than bringing it under single 
management, would be access and potential harvest or fuels 
reductions, those types of things, timber management activities 
that might occur?
    Ms. Collins. I would add one more. And that is the point 
that I think was made by the last study that was given to 
Congress, and that is the concern that the water that is there, 
which is fairly limited in supply and quantity anyway, may be 
needed in terms of protecting these species that are listed 
under ESA.
    Mr. Simpson. Okay.
    Ms. Collins. That is the third point.
    Mr. Simpson. I will tell you--and Congressman Blumenauer 
mentioned it just a minute ago--but if you have got 95,000 
acres already under this watershed that you don't have a fire 
protection plan for, I would get on it right away, because I 
can tell you what forest fires have done to watershed quality 
in Idaho and other places, and the damage that has been created 
by forest fires. And if you don't do something about having a 
fuels reduction program in that area and in this other area, 
eventually lightning is going to strike there too.
    Mr. Blumenauer. We have had it for 109 years, Congressman. 
There is an aggressive program. And in the other 95,000 acres, 
there is a higher level of protection, not the Tier 2, Congress 
has provided for it. And that is what we want, is the higher 
level of protection.
    Mr. Simpson. Of forest fire protection?
    Mr. Blumenauer. Of water quality overall.
    Mr. Simpson. Does that include--in the 95,000 acres that 
you are talking about--and I cannot remember the names--but do 
you go in and thin forests out there, and reduce fuel loads and 
that type of thing, or does any activity occur in that area?
    Mr. Rosenberger. The City of Portland and the Forest 
Service do have a forest fuels management program, as well as a 
forest fire--you know, or a lightning strike, a way of fighting 
fires.
    One of the things that I would like to clarify, if I can 
back up just a second, is that the Bull Run Management Unit is 
mostly owned by the Federal Government and it is managed by the 
Forest Service, okay, in conjunction with Portland, you know, 
for the Bull Run Management portion, so it is under single 
management. The issue here is that two-thirds or so is managed 
under the provisions of ORCA, and the other one-third of so, 
mostly the Little Sandy Watershed, is managed under the 
auspices of a Tier 2 forest under the Northwest Forest Plan.
    So one of the things that we want to get out of this is a 
consistent approach to the entire drainage. That is one of our 
objectives.
    If I can go over to the side of something else here just 
for a second, just to sort of say where things are, because one 
of the issues of the Forest Service is the fact that six years 
ago or five years ago, in 1996, the results of a regional water 
supply plan said that the Little Sandy was down the list of 
priorities and would not be the most reasonable thing to 
develop for a water supply for the metropolitan area. And that 
was in relationship to some of the other sources in the local 
area that seem to be more viable.
    Well, viability can be ephemeral. Five years later, one of 
the highly-touted water sources is questionable in the 
community relative to source water quality and community 
acceptance. ESA issues arise on some of the other more highly-
rated potential sources that came out of the study. So these 
things kind of move around, and it seems like it is prudent to 
protect, to the highest degree possible, a potential water 
source like the Little Sandy, to be protected as a potential 
drinking water supply, even at the same time as the expectation 
is that it is part of the comprehensive approach to address ESA 
issues in conjunction with the management of the Bull Run at 
the same time as we meet the water supply needs of the 
metropolitan community.
    Mr. Simpson. Then the only increased protection that you 
are really talking about is access by people, isn't it? I mean, 
you said you had a forest management plan and a fire plan in 
the other area, working with the Forest Service and the City of 
Portland and so forth, so really what you are talking about is 
just people access?
    Mr. Rosenberger. We are talking about people access as well 
as not harvesting timber, as in the rest of the Bull Run 
Management Unit under ORCA, so that it is consistent with that 
level of protection.
    Mr. Simpson. And if they have no plans to harvest timber, 
then really we are just talking about--I mean, if they did not 
harvest timber, then it is just access?
    Mr. Rosenberger. Well, Congressman, I think that what I 
would say is what you end up, when you put this in law, is you 
have certainty. It was 1992, I think, the last time that there 
was timber harvest in the Little Sandy Basin and that 
watershed. That is nine years ago. We have been using that 
basin for 109 years. We are planning for the next 109 years. 
And so what happened in the last nine may not be the best 
precursor of the future. So from our standpoint, if we can get 
certainty, if we can get something in the law, we have a much 
better foundation on which to make our strategic planning.
    Mr. Simpson. Have you done active fuels reduction in the 
Bull Run area?
    Mr. Rosenberger. Congressman, how active that is and how 
detailed it is is not something--I do not know the answer to 
that. I cannot describe that. I can provide that to you. Would 
that be helpful?
    Mr. Simpson. Yes, it would.
    Mr. Rosenberger. Okay.
    Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Rosenberger. That goes beyond my technical ken.
    Mr. McInnis. I thank the panel, and I also thank the 
Committee. As the Committee knows, if you have any further 
questions, you can ask the witness. We will hold the record 
open for 10 days for additional testimony.
    The panel is excused and the Committee is adjourned.
    [Whereupon, at 4:37 p.m., the Committee was adjourned.]
    [Additional material supplied for the record follows:]

    1. Letter submitted for the record by Denise Boggs, 
Executive Director, Utah Environmental Congress, on H.R. 451;
    2. Letter submitted for the record by Frank Gearhart, 
President, Citizens Interested in Bull Run, Inc., on H.R. 427; 
and
    3. Letter submitted for the record by Ivan Maluski, 
American Lands Alliance, et al., on H.R. 427.

[GRAPHIC] [TIFF OMITTED] T1931.030

[GRAPHIC] [TIFF OMITTED] T1931.003

[GRAPHIC] [TIFF OMITTED] T1931.038


</pre></body></html>
